Audit Report




OIG-14-031
Fiscal Service Needs to Improve Program Management of Direct
Express
March 26, 2014




Office of
Inspector General
Department of the Treasury
Contents

Audit Report
Results in Brief ..............................................................................................       5

Audit Results .................................................................................................     12
  Fiscal Service’s Considerations to Establish Direct Express .............................                         12
      Debit Card Pilot Program ........................................................................             12
  Direct Express Financial Agent Selection Process ..........................................                       14
      Fiscal Service’s Selection of Comerica Bank .............................................                     15
  Monitoring Compliance with the Financial Agency Agreement (FAA) ...............                                   18
      Monthly Activity Reports... ....................................................................              19
      Revenues and Expenses of the Program ...................................................                      21
      Cost of the Program... ...........................................................................            21
      Service Level Requirements in the FAA....................................................                     22
      Annual Certification Confirming Compliance with the FAA .........................                             22
      Direct Express Customer Satisfaction Surveys ..........................................                       22
      Oversight Clause ..................................................................................           23
  Financial Agency Agreement Amendments ...................................................                         23
  Compensation Payments Made to Comerica .................................................                          31
      Card Enrollment Fees ............................................................................             31
      Infrastructure Development Support ........................................................                   31
Concluding Remarks .......................................................................................          33

Recommendations ..........................................................................................          34

Appendices
    Appendix 1:           Objectives, Scope, and Methodology ....................................                   42
    Appendix 2:           Chronology of Significant Events for Direct Express ...............                       45
    Appendix 3:           Direct Express Enrollments and Fiscal Service’s
                          Payments to Comerica ........................................................             47
    Appendix     4:       Survey Results for the Debit Card Pilot Program .....................                     49
    Appendix     5:       Analysis of the Financial Agent Selection Process’ Six Finalists                          50
    Appendix     6:       Direct Express Program Revenues and Expenses.....................                         53
    Appendix     7:       Service Level Requirement (Customer Service Response Time) .                              54
    Appendix     8:       Direct Express Monthly Call Volume .....................................                  55
    Appendix     9:       Management Response .......................................................               57
    Appendix     10:      Major Contributors to This Report .........................................               63
    Appendix     11:      Report Distribution ..............................................................        64




                          Fiscal Service Needs to Improve Program Management of Direct Express                    Page i
                          (OIG-14-031)
Abbreviations
  ACH                  automated clearinghouse
  ATM                  automated teller machine
  DCIA                 Debt Collection Improvement Act of 1996
  EFT                  electronic funds transfer
  ETA                  electronic transfer account
  FAA                  financial agency agreement
  FRB                  Federal Reserve Bank
  Fiscal Service       Bureau of the Fiscal Service
  IVR                  interactive voice response
  OIG                  Office of Inspector General
  OASDI                Old Age, Survivors, and Disability Insurance
  PIN                  personal identification number
  POS                  point-of-sale
  SSA                  Social Security Administration
  SSI                  Supplemental Security Income




                   Fiscal Service Needs to Improve Program Management of Direct Express   Page ii
                   (OIG-14-031)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General



                        March 26, 2014

                        David A. Lebryk
                        Commissioner
                        Bureau of the Fiscal Service

                        In 2008, the Bureau of the Fiscal Service (Fiscal Service) 1
                        established the Direct Express® Debit MasterCard® program (Direct
                        Express), a program that allowed federal beneficiaries to receive
                        benefit payments electronically using a prepaid debit card. Effective
                        March 2013, individuals, with limited exceptions, could no longer
                        receive federal payments by paper check and would have to either
                        receive the payments by direct deposit to a bank account or
                        through the Direct Express prepaid debit card.

                        This report presents the results of our audit of Direct Express. The
                        objectives of our audit were to determine whether Fiscal Service’s
                        decision to proceed with the program, selection of the financial
                        agent, and administration of the program were reasonable. As of
                        June 2013, there were approximately 5.5 million enrollees in Direct
                        Express, and Fiscal Service had paid the program’s financial agent,
                        Comerica Bank (Comerica), about $32.5 million in enrollment fees
                        and infrastructure development support.

                        To accomplish our objectives, we reviewed: (1) Fiscal Service’s
                        considerations in initiating the program, (2) Fiscal Service’s
                        financial agent selection process and the selection of Comerica as
                        the Direct Express financial agent, (3) the terms of the financial
                        agency agreement (FAA), (4) how an amendment to the FAA to
                        compensate Comerica was vetted and approved, and (5) Fiscal
                        Service’s monitoring of the FAA. We interviewed officials and staff
                        with Fiscal Service, Comerica, the Federal Reserve Bank of Dallas,
                        and the Social Security Administration (SSA). We also reviewed

1
    Direct Express was established by the Department of the Treasury’s (Treasury) Financial
    Management Service. Effective October 7, 2012, Treasury consolidated the Financial Management
    Service with the Bureau of the Public Debt, and re-designated it as the Bureau of the Fiscal Service.
    Although most matters discussed in this report occurred while the program was administered by the
    Financial Management Service, we refer to Fiscal Service throughout this report.


                        Fiscal Service Needs to Improve Program Management of Direct Express        Page 3
                        (OIG-14-031)
                      Fiscal Service’s policies and procedures, and examined documents
                      related to the origination and administration of the FAA.
                      Additionally, we visited two call centers that handled Direct
                      Express calls to gain an understanding of call center operations.
                      Appendix 1 contains a more detailed description of our objectives,
                      scope, and methodology.




Illustration 1. Direct Express homepage
Source: Comerica Bank, https://www.usdirectexpress.com/edcfdtclient/index.html#




                      Fiscal Service Needs to Improve Program Management of Direct Express   Page 4
                      (OIG-14-031)
Results in Brief
                        We concluded that Fiscal Service’s decisions to establish Direct
                        Express and select Comerica as the program’s financial agent were
                        reasonable; however, its analyses and documentation of those
                        decisions should have been more complete. In addition, Fiscal
                        Service needs to improve its oversight of Direct Express and
                        administration of the FAA.

                        In April 1996, Congress passed the Debt Collection Improvement
                        Act of 1996 (DCIA) requiring that all non-tax federal payments
                        made after January 1, 1999, be paid by electronic funds transfer
                        (EFT). In its effort to implement DCIA, in September 1998 Treasury
                        issued regulations 2 which provided that individuals receiving a
                        federal benefit, wage, salary, or retirement payment shall be
                        eligible to open an electronic transfer account (ETA) 3 at a federally
                        insured financial institution that offers ETAs.

                        Pursuant to its authorities, 4 in January 2007 Fiscal Service directed
                        a financial agent, JPMorgan Chase Bank, NA (JPMorgan Chase), to
                        conduct a 1-year pilot program to provide unbanked 5 federal
                        beneficiaries the option to receive federal benefit payments
                        electronically. Fiscal Service set eight performance metrics for
                        evaluating the pilot program. Eight (8) months into the 1-year pilot,
                        in September 2007, Fiscal Service declared that the success of the
                        pilot supported a national rollout of the program, as the pilot met 3
                        of the 8 performance metrics – Cost to government of disbursing a
                        payment, Cost of card to beneficiary, and Overall customer

2
    31 CFR Part 208, Management of Federal Agency Disbursements.
3
    An ETA is an account made available by a federally insured financial institution acting as a Treasury
    financial agent in accordance with 31 CFR Part 208.5. Financial institutions are not required to offer
    ETAs.
4
    12 USC § 90, Depositaries of public moneys and financial agents of Government, provides that the
    Secretary of the Treasury may select financial agents in accordance with any process the Secretary
    deems appropriate. 12 U.S.C. § 265, Insured banks as depositaries of public money; duties; security;
    discrimination between banks prohibited; repeal of inconsistent laws, provides that all insured banks
    designated for that purpose shall be depositaries of public money of the United States. 31 CFR Part
    202, Depositaries and Financial Agents of the Federal Government, governs the designation of
    depositaries and financial agents of the Federal Government, and their authorization to accept
    deposits of public money and to perform other services that may be required.
5
    The Federal Deposit Insurance Corporation defines unbanked as lacking any kind of deposit account
    at an insured depository institution.


                        Fiscal Service Needs to Improve Program Management of Direct Express        Page 5
                        (OIG-14-031)
satisfaction; Fiscal Service also determined that another metric,
Losses due to fraud and unauthorized use, was not material.

Fiscal Service announced in September 2007 that it was seeking
applications from financial institutions to serve as the financial
agent that provides beneficiaries the option of using a prepaid debit
card for receiving federal benefit payments electronically. Fifteen
(15) institutions responded to the announcement, and Fiscal
Service established a financial agent selection process for Direct
Express. After reviewing average costs within the debit card
industry, Fiscal Service decided not to use a cost model or
otherwise create a cost estimate to price the program due to the
short time to select a financial agent and belief that pricing would
be determined by competition. In addition, Fiscal Service did not
develop a quality assurance surveillance plan for monitoring the
selected financial agent’s compliance with the FAA.

Although we do not take issue with the selection of Comerica as
the financial agent for Direct Express, Fiscal Service could not
support its determination that Comerica would provide the lowest
cost/highest quality service to the cardholders at the time of its
selection. Also, Fiscal Service did not document its evaluation of
Comerica’s full technical capabilities, including Comerica’s stated
capacity to process and accommodate a nationwide prepaid debit
card program for federal beneficiaries.

Fiscal Service entered into an FAA with Comerica, effective
January 3, 2008, which stated that Comerica would not charge
any fees to the government or any government agency and may
charge cardholders only the card usage fees prescribed in the FAA.
Although the cost of Direct Express was originally free to the
government, Fiscal Service amended the FAA, effective March 31,
2011, to provide compensation to Comerica of $5 per new
enrollment processed on or after December 1, 2010, and up to
$20 million for infrastructure development support (of which $12.7
million was paid as of June 2013). We found that Fiscal Service
did not identify, consider, or document all the available options
before deciding whether and how much to compensate Comerica
for operating the program.

According to Fiscal Service officials, the rationale to compensate
Comerica was based on increased demand for the Direct Express

Fiscal Service Needs to Improve Program Management of Direct Express   Page 6
(OIG-14-031)
                        card as a result of the “all-electronic mandate.” 6 Fiscal Service
                        anticipated that the mandate would result in enrollments increasing
                        to between 3 million to 4 million cardholders by 2013. Another
                        consideration was that Comerica’s revenue did not meet the bank’s
                        expectations because of how Direct Express cardholders used the
                        card (e.g., cardholders were by and large withdrawing cash when
                        benefit payments were loaded on the cards instead of using the
                        cards for purchases, resulting in less interchange income 7 to
                        Comerica).

                        Fiscal Service officials emphasized that financial agents provide
                        specified services in a fiduciary capacity. The officials noted the
                        FAA with Comerica provided for Fiscal Service, in its sole
                        discretion, to modify, add to, or reduce the specific services
                        required under the general scope of the agreement. The FAA also
                        provided that if such a modification, addition, or reduction causes
                        an increase or decrease in the cost of, or the time required for,
                        performance of any service required by the agreement, Fiscal
                        Service and the financial agent will negotiate an equitable
                        adjustment in the price of the service or other terms of
                        performance.

                        We question whether the anticipated increase in cardholders and
                        the manner in which cardholders used the cards represented a
                        change in scope. Comerica had stated it was fully capable and
                        could readily scale to 20 million or more cardholders in its 2007
                        application. Furthermore, it specified in a 2010 presentation that it
                        had no capacity concerns because of the mandate. Additionally, in
                        2010, Comerica informed Fiscal Service that the bank validated the


6
    The “all-electronic mandate” refers to Treasury’s December 22, 2010, amendment to its regulation
    to require recipients of federal non-tax payments to receive payment by EFT, effective May 1, 2011.
    The effective date was delayed until March 1, 2013, for individuals receiving federal payments by
    check on May 1, 2011; and for individuals who requested check payments when they filed a claim
    for federal benefits before May 1, 2011. Individuals who did not choose the direct deposit option
    would be enrolled in the Direct Express program. Treasury waived the EFT requirement for recipients
    born before May 1, 1921, and those receiving payments by paper check on March 1, 2013; for
    payments not eligible for deposit to a Direct Express prepaid card account; and for recipients whose
    Direct Express card had been suspended or cancelled. In addition, the rule established criteria for
    granting a waiver if the EFT requirement created a hardship due to mental impairment or remote
    geographic location.
7
    The primary source of income to Comerica from Direct Express is interchange income.


                        Fiscal Service Needs to Improve Program Management of Direct Express      Page 7
                        (OIG-14-031)
                        capacity to handle 5 million cardholders. That said, it should be
                        noted that the FAA states the following:

                            “[Fiscal Service] does not guarantee the number of
                            cardholders who will enroll in the program, the dollar amount
                            that will be loaded onto the debit cards, any set quantity or
                            types of transactions that cardholders will complete, any
                            minimum volume of business, or level of compensation to
                            the financial agent, and shall not adjust compensation on the
                            basis that volume level did not meet expectations.”

                        We believe that amending the FAA to compensate Comerica, in
                        effect, served to guarantee a minimum volume of business and
                        level of compensation. Furthermore, Fiscal Service did not validate
                        the revenue and expense information from Comerica before
                        amending the FAA to compensate Comerica and did not adequately
                        validate infrastructure improvements before paying Comerica.
                        Fiscal Service’s decision to pay Comerica for infrastructure
                        development support could also provide Comerica with a future
                        competitive advantage in the rebid of the FAA.

                        Fiscal Service’s use of financial agents does not constitute a
                        procurement contract under the purview of the Federal Acquisition
                        Regulation; therefore, the monitoring of FAAs varies by program. 8
                        Although Fiscal Service monitors Direct Express through various
                        means, we found that Fiscal Service did not (1) review all the
                        monthly activity reports Comerica is required to submit under the
                        FAA; (2) track Comerica’s revenues and expenses associated with
                        the Direct Express program; (3) assess the reasons why the
                        anticipated cost savings of the program were not achieved,
                        (4) require Comerica to certify compliance with the FAA annually,
                        as required by the FAA; (5) enforce provisions of the FAA related
                        to Comerica’s performance of certain service level requirements;
                        (6) conduct periodic independent customer satisfaction surveys; or
                        (7) develop a formal plan to ensure that customer feedback is


8
    The Federal Acquisition Regulation, Subpart 46.4, Government Contract Quality Assurance, provides,
    among other things, for a structured approach to ensure that supplies or services being acquired by
    the government conform to contract specifications through a quality assurance surveillance plan. The
    quality assurance surveillance plan specifies all work requiring surveillance, the method of
    surveillance, and the form of documentation for the surveillance.


                        Fiscal Service Needs to Improve Program Management of Direct Express      Page 8
                        (OIG-14-031)
                         communicated to the appropriate officials so that necessary actions
                         can be taken.

                         We also noted that the FAA with Comerica did not include a
                         provision requiring the financial agent to notify the Office of
                         Inspector General (OIG) of instances of possible violations of
                         federal criminal laws such as fraud, conflicts of interest, bribery, or
                         illegal gratuities. We believe such a provision would act as a
                         deterrent and help ensure that possible violations of civil and
                         criminal laws are appropriately handled.

                         Appendix 2 presents a chronology of significant events regarding
                         Direct Express.

                         In January 2014, after our audit period, Fiscal Service announced a
                         rebid of the Direct Express program’s FAA. The solicitation
                         provides a comprehensive description of the program, including the
                         services to be provided and cardholder usage patterns. 9 The
                         solicitation also includes a timeline for selection and
                         implementation activities, which are expected to be concluded by
                         December 31, 2014. We did note, however, that the solicitation
                         did not indicate the period to be covered by the agreement, a
                         matter we brought to management’s attention.

                         As Fiscal Service rebids the Direct Express FAA, we are
                         recommending that the Fiscal Service (1) create an independent
                         estimate to determine whether proposed compensation by bidders
                         is reasonable; (2) assess bidders’ technical capability to process
                         and handle a large nationwide prepaid debit card program; (3) as
                         part of developing the next FAA, assess the monthly activity
                         reports required by the FAA for their continued relevancy and
                         usefulness in monitoring the program; and (4) include a provision in
                         the FAA requiring the selected financial agent to notify OIG of any
                         instances of possible violations of federal criminal laws such as
                         fraud.

                         To improve program administration of Direct Express, we are
                         recommending that Fiscal Service (1) ensure infrastructure
                         compensation paid to Comerica or any other financial agent is


9
    We did not validate the information in the solicitation as part of this audit.


                         Fiscal Service Needs to Improve Program Management of Direct Express   Page 9
                         (OIG-14-031)
appropriately supported, (2) assess the costs and burden of the
program to the cardholders on an on-going basis as changes to
technology and the business environment occur, (3) establish a
quality assurance surveillance plan to monitor and document the
financial agent’s performance under the FAA and take action when
requirements, including service level requirements, are not met;
(4) track the financial agent’s revenues and expenses associated
with the Direct Express program throughout the FAA and
periodically assess whether financial agent compensation
requirements in the FAA remain reasonable and fair to both parties;
(5) periodically assess net cost savings of the Direct Express
program compared to other benefit delivery methods and determine
the reasons for variances from expectations; (6) continue to
enforce the annual certification of compliance requirement in the
FAA and take action when requirements are not met; (7) consider
obtaining periodic independent customer satisfaction surveys to
ensure customer feedback is unbiased; (8) develop a formal plan to
ensure customer feedback is communicated to the appropriate
parties for action, prioritized, and addressed; and (9) ensure that
appropriate and complete documentation is maintained for all
matters related to FAAs for Direct Express.

Management Response

In a written response, Fiscal Service stated that the Direct Express
program was a part of Fiscal Service’s efforts to increase the use
of electronic payments in accordance with DCIA and supports
Treasury’s “all-electronic mandate.” The increased use of electronic
payments significantly reduced the number of paper benefit checks
and will save an estimated $1 billion over a 10-year period. Today,
nearly 98 percent of all benefit payments are made electronically.
Over 5 million beneficiaries, many of whom are unbanked or under-
banked, are receiving their monthly payment through Direct
Express. Not only has this reduced the cost of government
operation; recipients now receive their government payments more
safely and securely. For these reasons, Fiscal Service believes the
program has been enormously successful.

Treasury’s “all-electronic mandate” in December 2010 radically
changed the scope and scale of the Direct Express program. The
number of cardholders increased from approximately 1.5 million to
over 4 million in a 2-year period. Fiscal Service discovered that the

Fiscal Service Needs to Improve Program Management of Direct Express   Page 10
(OIG-14-031)
newer cardholders had very different banking and customer service
requirements than voluntary cardholders, which was the model
used to inform the program’s initial design. The FAA with Comerica
allowed Treasury to renegotiate the terms to reflect different
demands and ensure that the agent was able to meet the
program’s new and broader scope. Fiscal Service made a
management determination that the renegotiations resulted in the
best value for the government while also maintaining high levels of
cardholder satisfaction.

Fiscal Service agrees with many of the audit recommendations to
improve the selection, control, and oversight of the financial agent
for Direct Express. The bureau already implemented many of them
and is currently re-competing the FAA as originally planned, as the
current agreement expires January 1, 2015.

OIG Comment

We acknowledge the importance of Direct Express to achieve the
goal of DCIA and Treasury’s “all electronic mandate.” However, as
discussed in our report, we are concerned with Fiscal Service’s
administration of the Direct Express program, its enforcement of
the terms of the FAA, and its overreliance on the financial agent
for decision-making information. Also, we found that Fiscal
Service’s documentation supporting key decisions and the ongoing
monitoring of a program involving tens of millions of taxpayer
dollars and the delivery of payments to millions of Federal
beneficiaries was often lacking.

Fiscal Service’s response to our 13 recommendations are
summarized and evaluated in the body of our report. We
determined that Fiscal Service’s response and corrective action met
the intent of 7 recommendations, and we consider those
recommendations closed. For 2 recommendations, Fiscal Service’s
planned corrective actions also met the intent of the
recommendation; however, Fiscal Service will need to provide an
estimated implementation date. For 4 recommendations, Fiscal’s
Service’s response either did not meet or only partially met the
intent of the recommendation, and we consider those
recommendations unresolved. We request that Fiscal Service
provide a more detailed response within 30 days for the 6


Fiscal Service Needs to Improve Program Management of Direct Express   Page 11
(OIG-14-031)
                recommendations that either lacked an estimated implementation
                date or are unresolved.

                Fiscal Service’s full written response is provided as appendix 9.

Audit Results
                Fiscal Service’s Considerations to Establish Direct Express

                DCIA required that all non-tax federal payments made after
                January 1, 1999, be paid by EFT unless waived by the Secretary
                of the Treasury. DCIA also required the Secretary to ensure that
                individuals receiving federal payments by EFT have access to an
                account at a financial institution at a reasonable cost, with the
                same consumer protections as other account holders at that
                financial institution.

                Debit Card Pilot Program

                In its effort to implement DCIA, Fiscal Service developed a debit
                card pilot program to provide unbanked federal beneficiaries the
                option of receiving federal benefit payments electronically.
                According to a June 2006 Fiscal Service concept paper, the goal of
                the pilot was to determine whether debit cards offered a cost-
                effective alternative to paper checks for disbursing federal benefit
                payments. In January 2007, Fiscal Service worked with JPMorgan
                Chase and SSA to implement a 1-year debit card pilot program.
                The pilot program required only an addendum to an existing FAA,
                as JPMorgan Chase was already a financial agent for Treasury. The
                pilot program included mostly Supplemental Security Income (SSI)
                and Old Age, Survivors, and Disability Insurance (OASDI)
                beneficiaries in Chicago and rural and urban areas of Illinois who
                volunteered for the pilot by replying to a direct mail solicitation.

                Fiscal Service determined that the pilot program would be
                evaluated using eight performance metrics:

                    •   Sign-up rates – obtain 3,000 participants in 6 months
                    •   Cost to government of disbursing a payment
                    •   Cost of card to beneficiary
                    •   Card usage
                    •   Activation rate of 98 percent – 100 percent


                Fiscal Service Needs to Improve Program Management of Direct Express   Page 12
                (OIG-14-031)
                            •   Debit Card/EFT retention rate
                            •   Losses due to fraud and unauthorized use
                            •   Overall customer satisfaction

                        Eight (8) months into the 1-year pilot, Fiscal Service concluded in a
                        September 2007 evaluation report that the pilot program met three
                        metrics: Cost to government of disbursing a payment, Cost of card
                        to beneficiary, and Overall customer satisfaction. Fiscal Service
                        also concluded that the pilot did not meet two metrics: Sign-up
                        rates – obtain 3,000 participants in 6 months and Activation rate
                        of 98 percent – 100 percent. According to the evaluation report,
                        Fiscal Service could not draw conclusions for two other metrics:
                        Card usage and Debit Card/EFT retention rate. Fiscal Service also
                        determined that the other metric, Losses due to fraud and
                        unauthorized use, was not material.

                        With respect to the metric Cost to government of disbursing a
                        payment, it should be noted that in fiscal year 2007, during the
                        time of the pilot, Fiscal Service reported that the government’s
                        cost of producing and mailing a paper check was $0.98, while an
                        EFT cost $0.10. In a press release from 2008, Fiscal Service
                        estimated that the government would save $44 million annually if
                        every unbanked beneficiary signed up for the prepaid debit card
                        option.

                        To meet the metric for Cost of card to beneficiary, the evaluation
                        report stated the cost to the cardholder to withdraw funds should
                        not exceed the average cost to cash a paper check or purchase a
                        money order. The evaluation report stated the average monthly
                        cost to the beneficiary to obtain cash using the debit card was
                        $3.87, while the average monthly cost to the beneficiary to use
                        the debit card for all transactions was $5.27. The report also
                        stated the fee to cash a government benefit check at a check-
                        cashing outlet ranged from 1 to 5 percent of the check’s value
                        with an average charge of 2.44 percent, or $12.19 for SSI benefit
                        payments and $18.52 for OASDI benefit payments for fiscal year
                        2007.10 In addition, the average fee for a $100 money order at a
                        check-cashing outlet, if fees applied, was $1.08, whereas the


10
     For fiscal year 2007, the average SSI benefit payment was $499.62 and the average OASDI benefit
     payment was $758.99.


                        Fiscal Service Needs to Improve Program Management of Direct Express   Page 13
                        (OIG-14-031)
United States Postal Service charged $1.05 and Wal-Mart charged
$0.50.

Fiscal Service worked with JPMorgan Chase to create a customer
satisfaction survey for the pilot. Overall customer satisfaction was
determined by several components, including cost to the
cardholder, likes and dislikes of card features, ease of use,
customer service, accessibility, enrollment experience, awareness,
and knowledge of the card’s benefits. Of the 1,607 cardholders
contacted for the survey, 202 (or about 13 percent) completed the
survey. Although many cardholders were satisfied with the debit
card, suggestions for improving the program included reducing
charges and fees, allowing customers to make deposits, removing
daily maximum cash withdrawal amounts, and having more
automated teller machines (ATMs) and banks in the area.
Appendix 4 presents the survey results for the debit card pilot
program.

Direct Express Financial Agent Selection Process

Concluding that the pilot’s success supported a nationwide rollout,
in September 2007, Fiscal Service announced it was seeking
applications from financial institutions to serve as the financial
agent to provide beneficiaries the option of using a prepaid debit
card for receiving federal benefit payments electronically.
Treasury’s selection of a financial agent does not constitute a
procurement effort subject to the requirements of the Federal
Acquisition Regulation. In this regard, the Secretary of the Treasury
has broad authority in selecting financial agents. According to
Fiscal Service officials, the relationship between a financial agent
and the government is different from a relationship between a
contractor and the government in that a financial agent provides
specific services in a fiduciary capacity. The financial agent
selection process establishes the general parameters of the
selection and designation of a financial agent, where each bureau
or office requesting the use of a financial agent is responsible for
developing, documenting, and following a financial agent selection
process for their program.

The financial agent selection process for Direct Express stated that
Fiscal Service would assess each submission based on the
following factors, taken as a whole:

Fiscal Service Needs to Improve Program Management of Direct Express   Page 14
(OIG-14-031)
                             •   pricing approach
                             •   specific debit card experience for government and corporate
                                 programs, including the experience of project managers
                             •   technical capabilities, including the applicant’s proposed time
                                 frame to implement an enrollment call center/customer
                                 service center, its capacity to process a large debit card
                                 business, leveraging of existing solutions, system security
                                 measures, physical security measures, personnel security
                                 measures, and infrastructure flexibility
                             •   overall organizational and project management skills
                             •   strength of written application and oral presentation of the
                                 project manager
                             •   management commitment
                             •   customer references
                             •   best interest of the government
                             •   any other appropriate factors

                         Fiscal Service’s Selection of Comerica Bank

                         Fifteen (15) institutions responded to Fiscal Service’s
                         announcement for a financial agent for Direct Express. After an
                         initial review, Fiscal Service determined that all but two of the
                         applicants met the requirements of the financial agent selection
                         process. 11 Fiscal Service conducted a preliminary evaluation of the
                         remaining 13 applicants to determine whether each applicant:

                             •   Was qualified to act as a financial agent
                             •   Had partners or affiliated organizations with which Treasury
                                 had no concerns
                             •   Was qualified to issue MasterCard- or Visa-branded debit
                                 cards nationwide
                             •   Was able to establish reloadable debit card accounts insured
                                 by the Federal Deposit Insurance Corporation and subject to
                                 Regulation E 12 protection


11
     One financial institution failed to meet the requirement to issue branded debit cards nationwide.
     Another applicant failed to meet the requirement of being a financial institution.
12
     Regulation E, set forth by the Board of Governors of the Federal Reserve System, outlines the rules
     and procedures for electronic funds transfers and the guidelines for those who sell and issue
     electronic debit cards. Rules for consumer liability for unauthorized card usage fall under this
     regulation as well.


                         Fiscal Service Needs to Improve Program Management of Direct Express      Page 15
                         (OIG-14-031)
    •   Was able to establish and staff an enrollment and customer
        service call center with U.S. citizens or lawful resident aliens
        no later than January 2008
    •   Had sufficient experience issuing debit cards

Following this evaluation, Fiscal Service eliminated 1 of the 13
applicants because the applicant had limited experience as a debit
card provider. Fiscal Service personnel stated that this applicant did
not provide information about the number of cards issued, number
of customers supported or the size of its portfolio, and did not
submit a signed transmittal letter as required by the application
instructions. Fiscal Service did not retain a copy of this financial
institution’s application.

The remaining 12 applicants were evaluated for experience
providing debit card services to government entities; pricing, size
and distribution of a surcharge-free ATM network; and the ability
to carry out the mission of Direct Express. According to the Fiscal
Service Commissioner, there were three important elements in the
selection of a financial agent for the program: (1) senior
management commitment to the program, (2) strong project
management, and (3) technical capability and proficiency in the
prepaid debit card market. Based on these and other elements,
Fiscal Service selected six finalists to give oral presentations. Fiscal
Service, however, did not document the content or results of the
oral presentations. Appendix 5 presents our analysis of the six
finalists’ applications.

On January 3, 2008, Fiscal Service entered into an FAA with
Comerica as the service provider for Direct Express, and publicly
announced its decision the following day. According to Fiscal
Service’s evaluation report, Comerica was selected for the
following reasons:

    •   Cardholder Fees - Comerica offered pricing at no cost to the
        government and the lowest fees to the cardholders
    •   Marketing Contribution - Comerica and MasterCard offered
        contributions to market the program
    •   Surcharge-Free Network - Comerica offered the largest
        surcharge-free ATM network, with 53,160 ATMs
    •   Experience - Comerica and its partner had deployed 25 state
        debit card programs in 13 states

Fiscal Service Needs to Improve Program Management of Direct Express   Page 16
(OIG-14-031)
    •   Debit Card Features - Comerica offered deposit notifications
        via email, phone, and text message; low-balance alert
        notices; online bill pay, and the ability to transfer funds using
        Interactive Voice Response (IVR)
    •   Strength of Presentation - According to Fiscal Service
        officials, Comerica’s written application and oral presentation
        were outstanding. Comerica’s representatives asked
        pertinent questions and answered the selection panel’s
        questions with detailed information
    •   Other Distinguishing Services - Comerica offered online
        enrollment options and an identity verification process.
        Comerica was sensitive to the needs of SSI recipients and
        trained its customer service representatives to deal with
        OASDI and SSI recipients. Comerica also planned to give
        customer service representatives elderly abuse training; its
        web site was compliant with the Americans with Disabilities
        Act; its software platform was designed solely for
        government business; and Comerica said it would retain an
        overstock of debit cards of 8 to 10 percent for emergencies.

We analyzed the applications of the six finalists and noted the
following:

    •   All of the six finalists offered pricing at no cost to the
        government
    •   Comerica was the only finalist that stated it had a capacity
        constraint, which was 20 million cardholders (given that
        anticipated enrollments were well below 20 million, we do
        not consider this stated constraint a major factor)
    •   Comerica was not the only finalist with a large surcharge-
        free ATM network
    •   Three other finalists were larger as far as asset-size and had
        greater nationwide name recognition
    •   Comerica did not have direct experience working with the
        Federal Government, nor had it previously been a financial
        agent for Treasury. Other finalists had experience working
        with the Federal Government, and three were already
        financial agents for Treasury

It should also be noted that Fiscal Service officials were unable to
support how they determined that Comerica would have provided
the lowest fees to cardholders. Though Fiscal Service staff created

Fiscal Service Needs to Improve Program Management of Direct Express   Page 17
(OIG-14-031)
                         a spreadsheet with calculations that indicated this to be the case,
                         they could not provide us with support for these calculations. 13
                         Fiscal Service management also did not document their evaluation
                         of the finalists’ full technical capabilities, including the capacity to
                         process a large number of prepaid debit cards and accommodate a
                         large number of cardholders nationwide. Despite these
                         documentation weaknesses, we determined that the financial agent
                         selection process for Direct Express was thorough and identified
                         the top applicants as finalists. We concluded that Fiscal Service’s
                         choice of Comerica was reasonable in that all six finalists had
                         sufficient capacity (at least on paper) to operate the program.

                         As a result of our review of Fiscal Service’s financial agent
                         selection process for Direct Express, we believe that the process
                         would be strengthened by (1) creating an independent government
                         cost estimate to help determine whether the proposed costs by
                         bidders are reasonable, and (2) assessing the technical capabilities
                         of bidders.

                         Monitoring Compliance with the Financial Agency Agreement

                         Standards for Internal Control in the Federal Government 14 require
                         agency management to conduct effective monitoring, assess
                         program quality and performance, and address any identified
                         deficiencies. A Fiscal Service official stated that each FAA and
                         program is different, and thus the monitoring of FAAs will, by
                         necessity, vary by program/activity. Fiscal Service’s monitoring of
                         Direct Express consisted of (1) creating a monthly dashboard that
                         tracked certain program activity using information from Comerica’s
                         monthly activity reports, (2) holding bi-weekly senior management
                         meetings with Comerica and operations calls with benefit-paying
                         agencies, (3) reviewing customer satisfaction survey results,
                         (4) monitoring payment postings on the 1st of the month, and
13
     The spreadsheet showed a calculated amount of $62,400 in cardholder fees for Comerica, which
     was the lowest for the six finalists. The calculated amount for the next highest finalist was $63,900.
14
     The Federal Managers’ Financial Integrity Act of 1982 requires the Comptroller General of the United
     States to issue standards for internal control in government. The standards provide the overall
     framework for establishing and maintaining internal control and for identifying and addressing major
     performance and management challenges and areas at greatest risk of fraud, waste, abuse, and
     mismanagement. GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government
     (Nov. 1999), requires federal agencies establish accounting and administrative controls in accordance
     with the Standards.


                         Fiscal Service Needs to Improve Program Management of Direct Express      Page 18
                         (OIG-14-031)
                         (5) receiving hourly updates on call center operations when call
                         volume peaks on the 1st and 3rd of each month.

                         While those activities are important to program monitoring, Fiscal
                         Service needs a more comprehensive approach to ensure financial
                         agent compliance with the FAA, and to determine whether the
                         Direct Express program is achieving the intended results. A critical
                         concept in federal procurement regulations is that quality assurance
                         surveillance plans be put in place to determine if the government is
                         actually receiving the goods and services it purchased in
                         accordance with the contract. Fiscal Service did not develop a
                         quality surveillance plan to determine if the government and
                         cardholders were receiving services in accordance with the FAA.
                         While we understand that FAAs do not come under the purview of
                         federal procurement law and regulations, we believe that the
                         critical concept of establishing and following a quality assurance
                         surveillance plan should be applied to FAAs, as a best practice.

                         Monthly Activity Reports

                         The FAA required that Comerica provide monthly activity reports to
                         Fiscal Service; however, Fiscal Service did not review some of the
                         reports that were submitted.

                         The FAA states that

                                 “At minimum, the Financial Agent shall supply the
                                 following information, separately by payment type, in
                                 the manner and format agreed upon by the parties:
                                 revenue fees by category and/or transaction type
                                 (including transaction fees by transaction type,
                                 interchange fees, 15 float earnings, issuer
                                 reimbursements, and other revenue or earnings),
                                 cardholder surcharge fees paid (fees added by
                                 merchants when a cardholder uses the card),
                                 automated clearing house (ACH) rejects (rejected
                                 transactions), enrollment rejects, identity verification
                                 rejects (when the enrollee’s identity cannot be
                                 verified), funding reports, adjustment reporting,

15
     Financial institutions receive interchange fees when a purchase is made with a debit card issued by
     the financial institution.


                         Fiscal Service Needs to Improve Program Management of Direct Express      Page 19
                         (OIG-14-031)
                                 financial activity (including loads, amounts, ATM
                                 withdrawals, PIN-based (personal identification
                                 number-based) and signature-based transactions and
                                 POS (point-of-sale) with cash-back combination
                                 transactions, aggregate account balance, aggregate
                                 transaction types), cardholder account activity
                                 (summary of activated, active, and closed accounts),
                                 cardholder demographic activity, cardholder issuance
                                 activity, enrollment activity, including the number of
                                 calls or website access statistics in response to
                                 specific marketing activity (which may require daily
                                 reports), service level metrics and customer service
                                 activity.”

                         Fiscal Service personnel created a monthly dashboard to track
                         certain program activity using the information from the monthly
                         activity reports received from Comerica. 16 The monthly dashboard
                         served as a summary of some of the items obtained from
                         Comerica, but did not include any comparisons against the metrics
                         in the FAA or other analytics.

                         According to Fiscal Service personnel, Fiscal Service did not review
                         (and in some cases did not realize that it had) the following four
                         monthly reports submitted by Comerica:

                             •   Revenue fees by category and/or transaction type (including
                                 fees by transaction type, interchange fees, float earnings,
                                 issuer reimbursements, and other revenue or earnings),
                             •   Cardholder surcharge fees paid,
                             •   Identity verification reports, and
                             •   Cardholder demographic reports.

                         We believe that reviewing the reports required by the FAA could
                         improve Fiscal Service’s monitoring of the FAA with Comerica and
                         future FAAs. Without reviewing this information, Fiscal Service

16
     The monthly dashboard reported on (1) monthly enrollment numbers, (2) the total number of open
     accounts, (3) the total number of cards issued and activated, (4) the total dollars loaded onto the
     cards, (5) the total value of ATM withdrawals, (6) the total and average value of POS transactions,
     (7) the total and average value of over-the-counter transactions, (8) the average amount of ATM
     withdrawals, (9) the average number of transactions, (10) total agency deposits, and (11) daily IVR
     call volume.


                         Fiscal Service Needs to Improve Program Management of Direct Express     Page 20
                         (OIG-14-031)
management is unable to make fully informed decisions about the
program such as the cost of the card to the cardholders, the
revenues earned by Comerica from the program, and the risk of
identity theft.

Revenues and Expenses of the Program

Fiscal Service did not track the revenues and expenses associated
with Direct Express. When we asked Fiscal Service management
for the revenues generated from and expenses incurred by
Comerica to run the program, they did not have this information
readily available. After several requests, Fiscal Service staff
obtained a spreadsheet from Comerica that showed it received
$298,394,638 in revenue from the Direct Express program as of
March 2013 (which included approximately $32.5 million in
compensation from Fiscal Service). Appendix 6 shows the Direct
Express program revenues and expenses since its inception in
2008. To improve the administration of the Direct Express
program, we believe that Fiscal Service should track the financial
agent’s revenues and expenses of the program to ensure that more
informed decisions regarding the financial gain or burden of the
program are made, and to help assess the financial agent’s
efficiency.

Cost of the Program

According to Fiscal Service estimates, the total cost savings of the
program from 2008 through May 2013 was $39.5 million, net the
compensation paid to Comerica of about $32.5 million. When the
Direct Express program was established in 2008, Fiscal Service
predicted that the Federal Government would save $44 million
annually if every unbanked beneficiary signed up for the program.
We found that Fiscal Service has not assessed the reasons for the
variance between the estimated savings ($44 million a year) and
the actual savings ($39.5 million over nearly 4½ years).

During the financial agent selection process, Fiscal Service officials
were unable to support how they determined that Comerica would
have provided the lowest cost to cardholders. We believe that the
cost burden of the fee structure to cardholders should be
considered on an on-going basis as changes to technology and the
business environment occur.

Fiscal Service Needs to Improve Program Management of Direct Express   Page 21
(OIG-14-031)
Service Level Requirements in the FAA

Comerica has not consistently met some service level requirements
in the FAA and Fiscal Service has not enforced these requirements.
The FAA sets service level requirements, including those for
account set-up, card issuance, payments, customer service
representative response time, IVR, call center abandonment rate,
and customer service representative call quality. A Fiscal Service
official stated that these service level requirements were developed
in 2007 and 2008 to accommodate approximately 1.2 million
cardholders, and are not realistic today with over 5 million
cardholders. While this official stated the service level requirements
in the FAA did not take into account the rapid growth and changes
to the program, Fiscal Service had not created new service level
targets. We believe that Fiscal Service should analyze Comerica’s
performance against the service level requirements in the FAA,
assess Comerica's ability to meet those requirements, and develop
new service level targets, if appropriate. We also believe that Fiscal
Service should enforce the service level requirements in the FAA
for Comerica and all financial agents of the Direct Express program
going forward. Appendix 7 shows Comerica’s performance against
the customer service response time requirement for the month of
May from 2009 to 2013.

Annual Certification Confirming Compliance with the FAA

The FAA requires that Comerica annually certify its compliance
with the FAA. Among other things, this requires that the bank
certify that it is not delinquent on any federal tax obligation or
other debt owed to the federal government. A Fiscal Service
official stated that Fiscal Service had not been enforcing the annual
certification requirement. However, in October 2013, for the first
time, Fiscal Service did obtain Comerica’s certification of
compliance. In the certification, Comerica disclosed that certain
requirements of the FAA were not met. For example, Comerica had
not implemented an agreed upon card feature (web bill pay) nor
met certain other service level requirements.

Direct Express Customer Satisfaction Surveys

The FAA requires Comerica to conduct monthly customer
satisfaction surveys. The survey questions were created by Fiscal


Fiscal Service Needs to Improve Program Management of Direct Express   Page 22
(OIG-14-031)
Service and cleared through the Office of Management and Budget.
We found that the customer satisfaction surveys were conducted
annually, not monthly. Fiscal Service was satisfied with the
frequency of the surveys and we do not consider this non-
compliance with the FAA to be a significant issue. As an
observation, however, we do note that the surveys were not
independent (i.e., conducted by a party reporting directly to Fiscal
Service), but rather conducted by a company commissioned by
Comerica and MasterCard.

A Fiscal Service official stated that survey results have led to
changes in the program, resulting in decreased customer service
call wait times and new account features such as text message
service alerts, and bill pay options. However, Fiscal Service lacked
a formal process to track how customer feedback from surveys is
prioritized and addressed. We noted recurring suggestions in the
customer satisfaction surveys regarding eliminating fees and
increasing the number of surcharge-free ATMs. Also, the survey
conducted in 2012 reported that 40 percent of cardholders
continued to be unaware of locations for surcharge-free ATMs. We
believe a formal process to track how customer feedback from
surveys is prioritized and addressed will help ensure customer
feedback is communicated to the appropriate parties for action.

Oversight Clause

The FAA with Comerica included an audit clause giving Fiscal
Service and entities authorized by Fiscal Service the right to
conduct announced and unannounced reviews and audits. That,
along with our office’s authorities under the Inspector General Act
of 1978, provides sufficient authority for audit. We did note,
however, the FAA did not include a provision requiring that
Comerica notify OIG of instances of possible violations of federal
criminal laws regarding fraud, conflict of interest, bribery, or illegal
gratuities. We believe such a provision would act as a deterrent
and help ensure that possible violations of civil and criminal laws
are appropriately handled.

Financial Agency Agreement Amendments

Fiscal Service amended the FAA with Comerica twice. The first
amendment, effective December 2008, was made to recognize
that the government’s access to particular information held by

Fiscal Service Needs to Improve Program Management of Direct Express   Page 23
(OIG-14-031)
Comerica is governed and sometimes restricted by information
access laws such as the Right to Financial Privacy Act. The
amendment also clarified that benefits paid by the government
became funds owned by the cardholder; and granted Fiscal Service
a license to use, modify, and create derivative works from all
marketing materials for the program.

The second amendment, effective March 2011, provided for Fiscal
Service to compensate Comerica as follows:

•   $5 for each new enrollment processed on or after December 1,
    2010; and
•   up to $20 million for infrastructure development support, with
    an initial payment of $10 million to be made within 30 days of
    the effective date of the amendment.

The justification to begin compensating Comerica for services it
had been performing at no cost to the government was described
in a March 8, 2011, memorandum from the Fiscal Service
Assistant Commissioner for Payment Management to the Fiscal
Service Commissioner and Deputy Commissioner. The
memorandum stated that Fiscal Service should consider
compensating Comerica for continued development and on-going
services needed to support the program, as the “all-electronic
mandate” required Comerica to make a substantial investment in
infrastructure to support the significant increase in cardholders.
Furthermore, card usage patterns of Direct Express cardholders had
resulted in lower revenues than anticipated.

According to the memorandum, Fiscal Service had four possible
responses to the program’s economic issues: (1) do nothing and
allow Comerica to continue to lose money operating the program;
(2) terminate the program and undertake the effort and expense of
transitioning over 1 million cardholders back to paper checks;
(3) authorize Comerica to increase fees assessed on cardholders,
which would conflict with the program’s original goal of providing a
low-cost payment option for unbanked beneficiaries; or (4) provide
compensation to Comerica, the option recommended in the
memorandum. Although the recommendation was not approved in
writing, the Commissioner and Deputy Commissioner told us that
they believed that compensation was the best option and
authorized this amendment to the FAA.

Fiscal Service Needs to Improve Program Management of Direct Express   Page 24
(OIG-14-031)
                         Fiscal Service, however, did not consider other options such as re-
                         bidding the FAA. In addition, Fiscal Service could not be sure that
                         Comerica was losing money running the program because it did not
                         validate revenue or cost information from Comerica before
                         amending the FAA in March 2011.

                         According to the memorandum:

                         •   Treasury’s “all-electronic mandate” would significantly increase
                             the demand for the Direct Express card. Fiscal Service
                             anticipated that the approximately 11 million recipients who
                             were receiving benefit payments by check would eventually
                             move to the Direct Express Debit MasterCard in large numbers
                             (estimated at 3 million to 4 million by 2013).
                         •   Comerica’s interchange income was lower than what Fiscal
                             Service and Comerica expected, and was significantly below the
                             interchange fee income generated by Comerica’s state benefit,
                             payroll, and general purpose reloadable debit card programs.
                             The memorandum stated this deviation in expected earnings
                             was due to unanticipated usage patterns of cardholders that
                             differed greatly from the state benefit programs upon which
                             Comerica modeled its assumptions in its 2007 application. For
                             example, almost half of the Direct Express cardholders
                             withdrew their entire balance the day after payment was
                             received, rather than leaving funds on the card and spending it
                             throughout the month, which would have allowed Comerica to
                             generate interchange fee income.
                         •   Comerica’s costs increased because cardholders’ demand for
                             live customer service telephone assistance was significantly
                             higher than expected.
                         •   Comerica’s costs increased because benefit-paying agencies did
                             not always follow the rules laid out in the Green Book 17 and
                             could not bring its systems into compliance with standard ACH
                             operating procedures. In addition, some benefit-paying agencies
                             manually enrolled program participants, and the information
                             supplied carried an unusually high rate of errors.
                         •   Comerica’s revenue was insufficient to cover the program’s
                             costs. According to the memorandum, Comerica produced an

17
     The Green Book, issued by Fiscal Service, is a guide for financial institutions processing Federal
     Government ACH payments and collections.


                         Fiscal Service Needs to Improve Program Management of Direct Express        Page 25
                         (OIG-14-031)
    analysis of the projected revenues and expenses for the
    program from which Fiscal Service concluded that Comerica
    would incur a projected loss of $124 million through 2014.

We have the following observations about the March 2011
memorandum and Fiscal Service’s decision to amend the FAA.

“All-Electronic Mandate”

Although Fiscal Service’s memorandum said the “all-electronic
mandate” would significantly increase the demand for the Direct
Express card, Comerica’s application to become the financial agent
for the program, dated October 2, 2007, stated “Comerica, along
with its strategic solutions partner, was fully capable and had the
existing capacity to readily scale to 20 million or more
cardholders.” In addition, in a presentation to Fiscal Service on
May 21, 2010, Comerica stated that it had no concerns about its
capacity for managing cardholder accounts, and that it had
validated its capacity for 5 million cardholders during the bid
process. When Fiscal Service amended the FAA in March 2011,
there were approximately 1.8 million cardholders in the program,
representing a small fraction of Comerica’s stated capacity (20
million cardholders) in October 2007 and well under Comerica’s
validated capacity (5 million cardholders) in May 2010.

When we asked Fiscal Service officials about Comerica’s capacity
to readily scale to 20 million cardholders, they told us Comerica did
not indicate that it could actually handle 20 million cardholders, but
rather that it could grow to accommodate that number. We note,
however, that Comerica’s application did not use any qualifier in its
stated capacity. The Fiscal Service official who wrote the March
2011 memorandum stated that he was unaware of Comerica’s
stated capacity of 20 million cardholders in its application.
Considering that an increase in the number of cardholders was a
factor in providing infrastructure development compensation to
Comerica, Fiscal Service should have explored why Comerica could
not accommodate the increase in cardholders, given its stated and
validated capacity.




Fiscal Service Needs to Improve Program Management of Direct Express   Page 26
(OIG-14-031)
                        Interchange income was lower than expected and cardholder usage
                        patterns decreased income

                        Although the FAA stated that Fiscal Service and the financial agent
                        will negotiate an equitable adjustment in the price of the service or
                        other terms of performance in the event of a change in the scope
                        of services occurs, it also stated that Fiscal Service would not
                        change the compensation paid to Comerica if the volume of
                        business from the card did not meet expectations. According to the
                        memorandum, Treasury unilaterally expanded the scope of services
                        required of Comerica. However, the amendment to compensate
                        Comerica mentions no changes or expansion in the scope of
                        services, but rather a significant increase in the number of
                        individuals who enrolled in the Direct Express program. In addition,
                        the memorandum asks the Commissioner and Deputy
                        Commissioner to “consider compensating [Comerica] for continued
                        development and on-going services needed to support the
                        program.”

                        The original FAA stated “[Fiscal Service] does not guarantee the
                        number of cardholders who will enroll in the program, the dollar
                        amount that will be loaded onto the debit cards, any set quantity or
                        types of transactions that cardholders will complete, any minimum
                        volume of business, or level of compensation to the financial agent,
                        and shall not adjust compensation on the basis that volume level
                        did not meet expectations.” When we asked why Fiscal Service
                        officials decided to compensate Comerica in light of this language
                        in the FAA, a Fiscal Service official stated that they did not want
                        Comerica to fail for providing the government a service. 18 Although
                        the Fiscal Service memorandum stated that cardholder usage was
                        not as expected, the way that cardholders used Direct Express was
                        similar to that of cashing a federal benefit check and consistent
                        with the usage patterns noted in the 2007 pilot program evaluation
                        report. In other words, we believe cardholder usage patterns should
                        not have come as a surprise to either Fiscal Service or Comerica.




18
     It should be noted that as December 2013, Comerica reported $65.2 billion in assets and equity of
     $7.2 billion.


                        Fiscal Service Needs to Improve Program Management of Direct Express     Page 27
                        (OIG-14-031)
Cardholder usage patterns increased costs

According to Fiscal Service officials, cardholders’ demand for call
center customer service was higher than expected. According to
Fiscal Service, call volume increases at very concentrated times,
once or twice a month, for approximately 2 hours (from midnight
to 2:00 a.m.), around the benefit payment date. Monthly activity
reports showed that call volume ranged from about 2.8 million calls
in June 2009 to about 17.4 million calls in May 2013. Of the 17.4
million calls in May 2013, approximately 5 percent, or 862,000
callers, opted to speak to a customer service representative and
590,000 calls were answered by a customer service
representative. In its application in 2007, Comerica stated it was
fully prepared to support the debit card program; and would
increase its staff at three of its call centers as needed. According
to the application, each of these centers support nearly 3 million
government debit cardholders and more than 2 million electronic
benefit transfer cardholders, 24 hours a day, 7 days a week.
Appendix 8 shows the Direct Express call volume levels since May
2009.

Fiscal Service officials stated that a reason for providing
infrastructure payments to Comerica was to maintain a high level
of customer service and to decrease call center wait times;
however, Comerica’s monthly activity reports showed that
customer service response times did not measurably change after
the bank received infrastructure payments. Appendix 7 shows the
customer service response time for the month of May from 2009
to 2013. Since 2010, Fiscal Service has paid approximately
$12.7 million to Comerica for infrastructure development.
According to Comerica, $7.8 million of that amount was for
improvements to the call centers and the remaining amount
($4.9 million) was for technology releases, project management,
and back-office costs. In December 2012, Comerica estimated that
it would need an additional $8.4 million to increase staff at call
centers in 2013 and 2014, which would increase support for the
call centers to a total of $16 million. To date, Comerica has not
requested the additional funding nor has Fiscal Service paid the
amount.




Fiscal Service Needs to Improve Program Management of Direct Express   Page 28
(OIG-14-031)
Unique needs at benefit-paying agencies

Fiscal Service’s March 2011 memorandum stated that unique
needs and problems at benefit-paying agencies increased program
costs, requiring Comerica to modify its software to accept and
process nonstandard payment transmissions. Although this issue
was resolved before the March 2011 memorandum, a Fiscal
Service official stated that it still had an economic impact on the
program, as Comerica had already incurred the additional costs to
resolve the issue. The expectation that the Direct Express program
would be extended to other federal benefit payments was evident
in 2007. In this regard, we believe Fiscal Service could have vetted
these types of technical and information system capability
concerns during the financial agent selection process, especially for
a financial institution that was not a current financial agent for
Treasury.

Revenues were insufficient to cover the costs of the program

In anticipation of Treasury instituting the “all-electronic mandate”
(announced in December 2010), Fiscal Service and Comerica held
discussions about compensating Comerica for the Direct Express
program. On May 21, 2010, Fiscal Service asked Comerica to
submit a proposal for compensation, if needed. Comerica
electronically submitted three compensation proposals to Fiscal
Service on October 28, November 1, and November 2, 2010.

    •   The October 28, 2010, proposal was for a monthly
        maintenance fee ranging from $1.325 to $1.425 for each
        issued card; a $3 fee for each new enrollment; and an
        extension of the FAA through January 2015. According to a
        Fiscal Service official, this proposal was rejected because it
        was entirely based on fees and Fiscal Service did not want
        to lock the government into a fee structure without
        considering other options, such as an upfront investment.
    •   The November 1, 2010, proposal was for a monthly
        maintenance fee of $0.92 per card; a $10 fee for each new
        enrollment; a lump sum development investment of
        $11 million; and two 1-year extensions of the FAA through
        January 2015. According to a Fiscal Service official, the
        November 1 proposal was closer to what Fiscal Service was
        expecting; however, Fiscal Service wanted to ensure the

Fiscal Service Needs to Improve Program Management of Direct Express   Page 29
(OIG-14-031)
        program would be in a good position to handle the additional
        cardholder volume because of the “all-electronic mandate.”
    •   The November 2, 2010, proposal was for a monthly
        maintenance fee of $0.92 per card; a $5 fee for each new
        enrollment, with an additional $5 fee if the enrollment was
        made in late 2012 or early 2013 to comply with the
        mandate; a lump sum development investment of $20
        million; and two 1-year extensions of the FAA through
        January 2015. Fiscal Service preferred a larger upfront
        investment versus a fee-based compensation model.

According to a Fiscal Service official, the $5 enrollment fee was
considered appropriate compensation for setting up new
enrollments given the additional requirements imposed on Comerica
from the “all-electronic mandate,” and for certain software
adjustments to accommodate benefit-paying agencies. The official
also stated that an upfront investment to resolve call center issues
was preferred over monthly fees, and the term of the FAA was
extended because Fiscal Service did not want it to expire near the
March 2013 deadline for the “all-electronic mandate”. In addition,
Fiscal Service rejected Comerica’s proposal to charge the
government monthly maintenance fees because the need for the
fee was not adequately supported in Comerica’s proposals. The
official also noted that Comerica could increase its revenue by
educating cardholders on how to use the card. For example, if
Comerica could convince cardholders not to withdraw all their
funds when a payment is received and use the card for purchases,
Comerica’s interest and interchange fee income would increase.

In November 2010, Fiscal Service asked Comerica to detail the
differences between its bid assumptions and the program as
implemented. On December 6, 2010, Comerica submitted a slide
presentation via email comparing its bid assumptions to the
implemented program and the requirements set forth by the “all-
electronic mandate”. In the slide presentation, Comerica showed
that most of its bid assumptions were based on its experience with
state benefit programs, “conservatively adjusted” for federal
benefit programs. The slide presentation included predictions of the
program’s expected revenues and expenses through 2014, with
expenses exceeding revenues by $124 million. Although we did
not audit the revenues and expenses of the Direct Express program
or these projections, we noted a large variance between

Fiscal Service Needs to Improve Program Management of Direct Express   Page 30
(OIG-14-031)
                        Comerica’s projections and the actual revenues and expenses of
                        the program. For example, Comerica’s slide presentation projected
                        that through 2014, program revenues would be $514 million and
                        expenses would be $638.3 million, based on 142 million benefit
                        payments made through 2014. However, as of March 2013, Direct
                        Express program revenue was $298 million (including
                        approximately $32.5 million paid by Fiscal Service) and expenses
                        were $290 million. Appendix 6 shows Direct Express program
                        revenues and expenses.

                        Compensation Payments Made to Comerica

                        Card Enrollment Fees

                        As of June 2013, Fiscal Service paid Comerica approximately
                        $19.8 million in card enrollment fees. 19 Each month Fiscal Service
                        received an invoice from Comerica for enrollment fees. Once the
                        invoice was received, Fiscal Service personnel divided the dollar
                        amount that Comerica requests by $5 and compared that number
                        to Comerica’s enrollment report for that month. While this step
                        compared Comerica’s invoices with Comerica’s monthly enrollment
                        numbers, the procedure did not determine whether Comerica’s
                        report of the number of enrollments was accurate. The Federal
                        Reserve Bank (FRB) of St. Louis tracked the number of federal ACH
                        enrollments processed each month. Twice a year, Fiscal Service
                        personnel compared FRB’s enrollment information to Comerica’s
                        enrollment number to gauge the accuracy of Comerica’s
                        information. To date, there have not been any significant variances.
                        We believe this is a practical test for determining the
                        reasonableness of Comerica’s reported enrollment number.

                        Infrastructure Development Support

                        Fiscal Service did not obtain documentation to support
                        infrastructure compensation, or confirm that the Fiscal Service
                        infrastructure payments resulted in infrastructure improvements for
                        the Direct Express program. Since the second amendment of the
                        FAA, Fiscal Service paid Comerica twice for infrastructure
                        development: $10 million in April 2011 and approximately

19
     The amended FAA provided that the enrollment fee be paid even if the issued card was not activated
     or the cardholder did not receive a benefit payments.


                        Fiscal Service Needs to Improve Program Management of Direct Express    Page 31
                        (OIG-14-031)
                        $2.7 million in December 2012, for a total of approximately
                        $12.7 million.

                        Comerica’s invoice for the $10 million payment in April 2011 listed
                        the items the funds would pay for as required by the March 2011
                        amendment, but did not list dollar amounts or a timeline for making
                        those improvements. The items listed in the FAA amendment
                        included, among other things, live operator call center costs; the
                        hiring and training of staff; pilot programs needed to add another
                        Federal agency to the program; costs to improve data transfers;
                        and marketing costs. In December 2012, Comerica submitted a
                        second invoice detailing pre-approved infrastructure development
                        items and the corresponding costs. According to a Fiscal Service
                        official, Comerica requested approximately $3.3 million, but Fiscal
                        Service approved only $2.7 million. Fiscal Service did not approve
                        approximately $600,000 in expenses earmarked for Comerica’s
                        Direct Express PayPerks program. 20 According to a Fiscal Service
                        official, a goal of the Direct Express PayPerks program was to
                        increase POS transactions, and thus increase interchange income
                        for Comerica. The official stated that the government should not
                        bear the cost for something that increases the bank’s revenue. We
                        agree.

                        Fiscal Service paid the full amount for infrastructure development
                        support without receiving additional documentation to support the
                        need for the payment, and without confirming that improvements
                        were actually made. We believe that Fiscal Service should ensure
                        infrastructure improvements were needed and justified. Going
                        forward, if such a scenario were to present itself again, Fiscal
                        Service should ensure that timelines are established for making
                        improvements and verify that improvements are made before
                        making a full payment to Comerica or any other financial agent.

                        As another observation, the Fiscal Service personnel responsible for
                        reviewing compensation to Comerica told us that although
                        enrollment fee payments made to Comerica went through two
                        levels of review and approval, infrastructure development
                        payments were reviewed and approved by one person. The

20
     The Direct Express PayPerks program was a marketing effort that educates cardholders about using
     the card for POS transactions and bill payments, and how to prevent identity theft.


                        Fiscal Service Needs to Improve Program Management of Direct Express   Page 32
                        (OIG-14-031)
                         Standards for Internal Control in the Federal Government advise
                         Federal agencies to divide key duties and responsibilities among
                         different employees to reduce the risk of error and fraud. This
                         includes separating the responsibilities for authorizing transactions,
                         processing and recording them, reviewing transactions, and
                         handling any related assets, as no one individual should control all
                         key aspects of a transaction or event. In this regard, Fiscal Service
                         should consider internal controls standards regarding the
                         segregation of duties as it relates to payments made to Comerica
                         for infrastructure development support.

Concluding Remarks
                         Although Fiscal Service’s decisions to create Direct Express and
                         select Comerica as the program’s financial agent were reasonable,
                         we are concerned with Fiscal Service’s administration of the Direct
                         Express program, its enforcement of the terms of the FAA, and its
                         overreliance on Comerica for decision-making information. Fiscal
                         Service did not construct an independent government cost estimate
                         during the financial agent selection process or before amending the
                         FAA to determine whether the costs Comerica incurred or may
                         incur in performing services for Direct Express were reasonable and
                         fair. Particularly surprising to us was that Comerica never formally
                         asked Fiscal Service for a change in the FAA to provide
                         compensation. 21 Furthermore, Fiscal Service did not validate the
                         costs Comerica incurred prior to approving compensation. In fact,
                         we believe that the compensation for infrastructure development
                         support could give Comerica a competitive advantage as Fiscal
                         Service rebids the program. We are also concerned that Fiscal
                         Service did not vigorously enforce, or formally amend as
                         appropriate, the minimum service level requirements imposed on
                         Comerica by the FAA. Also, we found that Fiscal Service
                         documentation supporting key decisions and ongoing monitoring of
                         a program involving tens of millions of taxpayer dollars and the
                         delivery of payments to millions of Federal beneficiaries was often
                         lacking.



21
     During our audit, we asked Fiscal Service officials on several occasions if such a formal request by
     Comerica existed, and were told it did not.


                         Fiscal Service Needs to Improve Program Management of Direct Express       Page 33
                         (OIG-14-031)
                          In January 2014, Fiscal Service announced a rebid of the Direct
                          Express program’s FAA. The solicitation provides a comprehensive
                          description of the program, including the services to be provided
                          and cardholder usage patterns. 22 The solicitation also includes a
                          timeline for selection and implementation activities, which are
                          expected to be completed by December 31, 2014. We believe the
                          solicitation provides bidders with much better information to make
                          informed proposals to Fiscal Service for managing Direct Express
                          going forward. That said, we believe Fiscal Service would be well
                          served to ensure that proposed costs by bidders are appropriate
                          and reasonable and that the selected financial agent has the
                          technical capacity to manage the program and meet the service
                          level performance requirements of the FAA.

Recommendations
                          As Fiscal Service rebids the Direct Express FAA, we recommend
                          that the Fiscal Service Commissioner:

                          1.    Create an independent estimate to determine whether
                                proposed compensation by bidders is reasonable.

                                Management Response

                                Fiscal Service agreed that the government should receive
                                multiple estimates to determine the true cost of operating the
                                program. During the re-competition of the FAA, Fiscal Service
                                asked each bidder to estimate the compensation they will
                                require so that the selected financial agent does not operate at
                                a loss while maintaining cardholder fees at current levels.

                                OIG Comment

                                We consider the recommendation unresolved. Although the
                                solicitation requests that bidders submit proposals for financial
                                support for operational costs, Fiscal Service did not indicate
                                whether it would develop an independent estimate to
                                determine whether the proposed compensation by the bidders
                                is reasonable.

22
     We did not validate the information in the solicitation as part of this audit.


                          Fiscal Service Needs to Improve Program Management of Direct Express   Page 34
                          (OIG-14-031)
2.    Assess bidders’ technical capability to process and handle a
      large nationwide prepaid debit card program.

      Management Response

      Over the past 7 years, Fiscal Service has developed a greater
      level of expertise about the magnitude and nature of the
      Direct Express program. For the re-competition of the FAA,
      Fiscal Service designed a two-phase selection process that
      first evaluates the bidders' capacity to handle a program of
      this size. In the solicitation, Fiscal Service included
      quantitative measures of program participation and cardholder
      banking patterns. Before a bidder can advance to the second
      phase of evaluation, the bidder must cite its actual experience
      in operating a debit card program with similar characteristics
      to Direct Express.

      OIG Comment

      We consider the recommendation unresolved. While the
      response describes a two-phased selection process regarding
      bidders’ capacity, the response does not state how Fiscal
      Service will assess bidders’ technical capabilities. We believe
      that Fiscal Service needs to validate the bidders’ claimed
      capacity, including their call center operations, for those
      bidders that advance to the second phase of the selection
      process.

3.    As part of developing the next FAA, assess the monthly
      activity reports required by the FAA with Comerica for their
      continued relevancy and usefulness in monitoring the program.

      Management Response

      Fiscal Service monitors all of the reports submitted by the
      current financial agent. Information on fees paid by
      transaction type as well as identity verification activity and
      cardholder demographics are of continued interest by program
      management, who currently receives this data from
      Comerica's monthly reports package. These monthly activity
      reports will be continued by the financial agent selected
      through the re-competition. The requirement for these reports
      is included in the solicitation.

Fiscal Service Needs to Improve Program Management of Direct Express   Page 35
(OIG-14-031)
      OIG Comment

      Our recommendation was for Fiscal Service to assess the
      monthly activity reports required by the FAA for their
      continued relevancy and usefulness in monitoring the program.
      According to Fiscal Service personnel, Fiscal Service did not
      review (and in some cases did not realize that it had) some of
      the monthly reports submitted by Comerica. To the extent
      Fiscal Service commits to (1) determining which reports are
      relevant and should be required, and (2) monitoring those
      reports, Fiscal Service’s response meets the intent of the
      recommendation. We consider the recommendation closed.

4.    Include a provision in the FAA requiring the selected financial
      agent to notify OIG of any instances of possible violations of
      federal criminal laws such as fraud.

      Management Response

      An amendment has been added to the current FAA that
      includes a requirement to notify OIG in cases of violation of
      federal criminal laws. This language will also be continued in
      the FAA for the financial agent selected in the re-competition.

      OIG Comment

      The response meets the intent of the recommendation and we
      consider the recommendation closed.

To improve program administration of Direct Express, we
recommend that the Fiscal Service Commissioner:

5.    Ensure that before infrastructure compensation is paid to
      Comerica or any other financial agent, Fiscal Service
      establishes that the improvements are needed, justified, made,
      reviewed and approved by more than one person.

      Management Response

      Fiscal Service will continue to follow its well-established
      process for re-negotiating the terms of an FAA, in accordance
      with the language contained in the FAA, when the scope of
      the agreement has changed. Fiscal Service will prepare a

Fiscal Service Needs to Improve Program Management of Direct Express   Page 36
(OIG-14-031)
      decision memorandum for bureau leadership and counsel after
      the program manager and the agent have shared objective
      data on the magnitude and cost of the change of scope and
      have agreed to a level of compensation that fairly balances the
      needs of the program while ensuring fair value for the
      government.

      OIG Comment

      We consider the recommendation unresolved. While Fiscal
      Service describes a process to identify and justify the need for
      things like infrastructure payments, the response does not
      address how Fiscal Service will determine that infrastructure
      improvements are actually made before payment; and the
      related payments are not made until they are reviewed and
      approved by more than one person.

6.    Assess the costs and burden of the program to the
      cardholders on an on-going basis as changes to technology
      and the business environment occur.

      Management Response

      Fiscal Service concurs that measuring the cardholders' overall
      satisfaction with the card is appropriate to ensure good
      program execution. The bureau plans to continue to measure
      cardholder satisfaction through surveys of cardholders. The
      survey will: (1) assess the cardholders' general satisfaction
      with the Direct Express card and (2) identify any areas where
      the cardholder is having difficulty such that it might inhibit
      proper use. The survey will also determine if there are any
      new features or capabilities that the cardholder would like to
      see on the card. For example, an uptick in ATM withdrawal
      fee revenue to the financial agent may be indicative of the
      need for additional free ATM cash withdrawals.

      OIG Comment

      We consider the recommendation unresolved. While surveys
      of cardholders provide important information as to overall
      satisfaction levels and areas for improvement, we believe
      Fiscal Service needs to separately and on an on-going basis
      monitor the costs and burden to the cardholder by looking at

Fiscal Service Needs to Improve Program Management of Direct Express   Page 37
(OIG-14-031)
      cardholder usage patterns and the totals costs incurred by the
      cardholders given those patterns.

7.    Establish a quality assurance surveillance plan to monitor and
      document the financial agent’s performance under the FAA
      and take action when requirements, including service level
      requirements, are not met.

      Management Response

      After the re-competition of the FAA, Fiscal Service will
      establish a performance measurement program for the Direct
      Express financial agent. The program would monitor three
      dimensions of agent performance: efficiency, customer
      satisfaction, and compliance. Additionally, the program
      manager would provide the financial agent a monthly score
      (from 1 to 5) in each of the three dimensions of performance.

      OIG Comment

      To the extent that Fiscal Service takes corrective action to
      address financial agent shortfalls in performance, to include
      when service level requirements are not met, the response
      meets the intent of the recommendation. We consider the
      recommendation closed.

8.    Track the financial agent’s revenues and expenses associated
      with the Direct Express program throughout the FAA and
      periodically assess whether financial agent compensation
      requirements in the FAA remain reasonable and fair to both
      parties.

      Management Response

      Fiscal Service currently monitors the revenues and expenses
      of the financial agent and will continue to ensure the FAA
      compensation remains reasonable and fair to all parties.

      OIG Comment

      The response meets the intent of the recommendation and we
      consider the recommendation closed.



Fiscal Service Needs to Improve Program Management of Direct Express   Page 38
(OIG-14-031)
9.    Periodically assess net cost savings of the Direct Express
      program compared to other benefit delivery methods (e.g.,
      ETA, paper check) and determine the reasons for variances
      from expectations.

      Management Response

      Fiscal Service routinely monitors the unit costs associated
      with all of the payment delivery processes for which it is
      responsible (e.g., checks, EFT, letter-of-credit, etc.). Fiscal
      Service currently calculates one unit cost for all EFT payment
      types; therefore, the unit cost of delivering a payment to a
      Direct Express card is the same as delivering a direct deposit
      payment to a bank account. Now that expensive paper checks
      are a miniscule portion of total payments, Fiscal Service
      intends to increase its focus on the unit cost differences
      among the various EFT delivery mechanisms.

      OIG Comment

      In recognition that comparing the cost of EFT to paper checks
      is now less relevant as a measure of savings, Fiscal Service’s
      planned focus on EFT cost differences meets the intent of the
      recommendation. We consider the recommendation closed.

10. Continue to enforce the annual certification of compliance
    requirement in the FAA.

      Management Response

      Fiscal Service plans to continue the annual certification
      process as currently administered for all financial agents. The
      annual certification will be monitored as one measure of
      financial agent compliance.

      OIG Comment

      The response meets the intent of the recommendation and we
      consider the recommendation closed.

11. Consider obtaining periodic independent customer satisfaction
    surveys to ensure customer feedback is unbiased.



Fiscal Service Needs to Improve Program Management of Direct Express   Page 39
(OIG-14-031)
      Management Response

      Fiscal Service intends to continue the practice of a third-party
      survey of cardholders that is conducted annually by a firm
      under contract to the financial agent. Fiscal Service has no
      reason to doubt the objectivity of a professional research firm.

      OIG Comment

      We acknowledge Fiscal Service’s intention to continue the
      practice of having surveys conducted annually by a firm under
      contract with the financial agent. We consider the
      recommendation closed.

12. Develop a formal plan to track how customer feedback from
    surveys is communicated to the appropriate parties for action,
    prioritized, and addressed.

      Management Response

      Fiscal Service intends to carefully integrate the actionable
      recommendations that emerge from the cardholder survey into
      its management of the Direct Express program. Fiscal Service
      is considering how the results of the survey might be
      incorporated into the financial agent performance
      measurement program.

      OIG Comment

      Fiscal Service’s response meets the intent of the
      recommendation. Fiscal Service should establish a date for
      when the bureau expects planned actions to be implemented.

13. Ensure that appropriate and complete documentation is
    maintained for all matters related to FAAs for Direct Express
    to include, but not limited to, amendments to the FAA. The
    extent of the documentation will vary depending on the
    matter, but significant information/requests from and to the
    financial agent should be communicated in formal writings and
    not just emails and other informal communications.




Fiscal Service Needs to Improve Program Management of Direct Express   Page 40
(OIG-14-031)
      Management Response

      In the past year, Fiscal Service has strengthened the
      documentation pertaining to all FAAs, not just those for Direct
      Express. Fiscal Service has established a working group
      (Financial Agent Oversight Group) that has been tasked with
      establishing oversight policies, including a standard checklist
      for document retention.

      OIG Comment

      Fiscal Service’s response meets the intent of the
      recommendation. Fiscal Service should establish a date for
      when the bureau expects the planned oversight policies to be
      implemented.

                                  * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Christen Stevenson, Audit
Manager, at (202) 927-8117. Major contributors to this report are
listed in Appendix 10.


/s/

Michael J. Maloney
Audit Director




Fiscal Service Needs to Improve Program Management of Direct Express   Page 41
(OIG-14-031)
Appendix 1
Objectives, Scope, and Methodology




The objectives of our audit were to determine whether the Bureau
of the Fiscal Service’s (Fiscal Service) decision to proceed with the
Direct Express® Debit MasterCard® program (Direct Express),
selection of the financial agent, and administration of the program
were reasonable. To accomplish our objectives, we reviewed:
(1) Fiscal Service’s considerations in initiating the program;
(2) Fiscal Service’s financial agent selection process and the
selection of Comerica Bank (Comerica) as its financial agent;
(3) the terms of the financial agency agreement (FAA); (4) how an
amendment to the FAA to compensate Comerica was vetted and
approved; and (5) Fiscal Service’s monitoring of the FAA.

To address our objectives, we:

    •   Researched applicable laws, regulations, Treasury directives,
        and Fiscal Service requirements, including:
           o Public Law 104-134, Debt Collection Improvement
              Act of 1996 (April 26, 1996);
           o 31 CFR Part 202, Depositaries and Financial Agents of
              the Federal Government (July 1, 2001);
           o 31 CFR Part 208, Management of Federal Agency
              Disbursements (December 21, 2010);
           o 12 USC §90, Depositaries of Public Moneys and
              Financial Agents of Government (January 3, 2012);
           o 12 USC § 265, Insured Banks as Depositaries of
              Public Money; Duties; Security; Discrimination
              Between Banks Prohibited; Repeal of Inconsistent
              Laws (January 3, 2012);
           o Federal Acquisition Regulation; and
           o U.S. Government Accountability Office, Standards for
              Internal Control in the Federal Government (November
              1999).

    •   Interviewed Fiscal Service’s Commissioner, Deputy
        Commissioner, and officials and employees of the Electronic
        Fund Transfer Strategy Division, who are responsible for the
        management and oversight of the Direct Express program.
        We also interviewed the Fiscal Service personnel who were
        part of the financial agent selection process.

    •   Interviewed Treasury’s Fiscal Policy Deputy Assistant
        Secretary who, in her prior position as Fiscal Service’s

Fiscal Service Needs to Improve Program Management of Direct Express   Page 42
(OIG-14-031)
Appendix 1
Objectives, Scope, and Methodology




        Assistant Commissioner for Payment Management, was
        responsible for guiding the implementation of the Direct
        Express program.

    •   Interviewed Comerica senior management officials
        responsible for managing the FAA and the relationship
        between Comerica and Fiscal Service.

    •   Interviewed managers at a Comerica subcontractor who
        operated three call centers supporting Direct Express (e.g.,
        calls relating to program enrollments, card maintenance, and
        other customer service related information).

    •   Interviewed key personnel at the Federal Reserve Bank of
        Dallas responsible for program enrollments.

    •   Interviewed staff in SSA’s Office of the Deputy
        Commissioner, Budget, Finance, Quality, and Management -
        Office of Financial Policy and Operations; Office of the
        Deputy Commissioner for Operations - Office of Public
        Service, and Operations Support; and Office of the Deputy
        Commissioner for Systems - Office of Applications and
        Supplemental Security Income Systems to gain an
        understanding of the agency’s role in assisting beneficiaries
        who elect to receive their benefit payments via the Direct
        Express card.

    •   Reviewed available documentation related to the Direct
        Express program, including the 2006 Debit Card Pilot
        Concept Paper, 2007 Debit Card Pilot Program Evaluation
        Paper, the 2007 financial agent selection process for the
        Direct Express program and financial agent selection process
        guidance for that period, the Financial Agent Selection
        Process Final Evaluation Report, applications from
        prospective financial agents, the FAA and its amendments,
        Comerica’s activity reports, monthly enrollment reports, and
        other related information.

    •   Reviewed Fiscal Service’s payment files for the Direct
        Express program to assess completeness of invoicing records
        and the controls over the invoice review, approval, and
        payment process.



Fiscal Service Needs to Improve Program Management of Direct Express   Page 43
(OIG-14-031)
Appendix 1
Objectives, Scope, and Methodology




    •   Reviewed the financial disclosures of key Fiscal Service
        officials involved in the administration of the Direct Express
        program to determine whether any conflicts of interest
        existed with the financial agent.

    •   Reviewed the performance plans of key Fiscal Service
        officials to determine whether these plans contained goals
        related to the Direct Express Program.

    •   Conducted site visits at two of the three Comerica
        subcontractor call centers to gain an understanding of call
        center operations. During our visits, we conducted
        walkthroughs of the facilities, inquired about upgrades to
        systems at the facilities, and listened in on 187 account
        maintenance calls. Our purpose for listening to these calls
        was to confirm that customer service representatives
        followed the prescribed enrollment script.

We performed fieldwork from March 2011 to July 2013 at Fiscal
Service in Washington, DC; Comerica in Auburn Hills, Michigan;
call centers operated by the Comerica subcontractor in San
Antonio, Texas, and London, Kentucky; the Federal Reserve Bank
in Dallas, Texas, and the Social Security Administration in
Woodlawn, Maryland.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Fiscal Service Needs to Improve Program Management of Direct Express   Page 44
(OIG-14-031)
                       Appendix 2
                       Chronology of Significant Events for Direct Express


Table 1: Chronology of significant events as it relates to the Direct Express Debit MasterCard program
         (Direct Express).

Date                                                       Significant Event
April 26, 1996       Congress passed the Debt Collection Improvement Act of 1996, requiring that all federal
                     payments after January 1, 1999, be paid by electronic funds transfer (EFT) unless waived
                     by the Secretary of the Treasury.
September 25, 1998   Treasury issued 31 CFR Part 208, which provided that any individual receiving a federal
                     benefit, wage, salary, or retirement payment shall be eligible to open an electronic transfer
                     account (ETA) at any federally insured financial institution that offers ETAs.
June 16, 2006        The Bureau of the Fiscal Service (Fiscal Service) prepared Concept Paper for the Debit Card
                     Pilot for Unbanked Federal Beneficiaries, which provided an overview of the pilot program
                     and how it could work.
November 27, 2006    Fiscal Service signed an amendment to its Financial Agency Agreement (FAA) with
                     JPMorgan Chase Bank, NA, to be the service provider for the debit card pilot.
January 2007         Fiscal Service developed a debit card pilot to provide unbanked, current, and new federal
                     beneficiaries the option of receiving federal benefit payments via a debit card. The pilot
                     program was targeted to beneficiaries in low-income areas of Illinois.
September 4, 2007    Fiscal Service announced it was seeking applications from financial institutions to serve as
                     the financial agent to provide all beneficiaries the option of using a prepaid debit card for
                     receiving Supplemental Security Income (SSI) and other federal benefit payments
                     electronically.
January 3, 2008      Fiscal Service entered into an FAA with Comerica as the service provider for the Direct
                     Express® Debit MasterCard program® (Direct Express).
January 4, 2008      Fiscal Service announced it selected Comerica as the financial agent for Direct Express.
June 10, 2008        Fiscal Service announced that the Direct Express program was available to the public.
December 22, 2008    Fiscal Service amended the FAA with Comerica to (1) restrict the government’s access to
                     specific cardholder information in accordance with federal laws, such as the Right to
                     Financial Privacy Act; (2) ensure that benefits paid by the government became funds owned
                     by the cardholder upon final settlement of the automated clearing house (ACH) entry; and
                     (3) grant Fiscal Service a nonexclusive, perpetual, fully paid license to use, modify, and
                     create derivative works from all Direct Express marketing materials designed for or produced
                     by Comerica, its contractors, MasterCard, or Visa.
December 18, 2009    The Secretary of the Treasury signed a memorandum recommending a paperless Treasury to
                     improve efficiency and service. The first recommended policy change required Social
                     Security and other beneficiaries to receive payments electronically, beginning in 2011. This
                     is known as the “all-electronic mandate.”
April 12, 2010       Fiscal Service met with Comerica to discuss the “all-electronic mandate.” Attending the
                     meeting were Comerica’s CEO, Treasury’s Fiscal Assistant Secretary, and Fiscal Service
                     officials: the Commissioner, Deputy Commissioner, Assistant Commissioner, and Program
                     Manager. Fiscal Service informed Comerica of the importance the program would have as a
                     result of the mandate, emphasizing Comerica’s relationship with Fiscal Service being a key
                     component. Fiscal Service asked Comerica to present financials and discuss the impact of
                     the “all-electronic mandate.”
April 19, 2010       Treasury issued a press release announcing plans for the “all-electronic mandate” by
                     implementing a three-pronged initiative to dramatically reduce the number of paper
                     transactions and moving them to electronic systems in an effort to save the agency more
                     than $400 million in its first 5 years. First, Treasury will require individuals receiving Social
                     Security, Supplemental Security Income, Veterans, Railroad Retirement, and Office of
                     Personnel Management benefits to receive payments electronically. Second, Treasury will
                     require businesses currently permitted to use paper Federal Tax Deposit coupons to make
                     those deposits electronically. Finally, Treasury will eliminate the option to purchase paper
                     savings bonds through payroll deductions.




                       Fiscal Service Needs to Improve Program Management of Direct Express                  Page 45
                       (OIG-14-031)
                      Appendix 2
                      Chronology of Significant Events for Direct Express


Date                                                      Significant Event
May 21, 2010         Comerica showed its readiness for the “all-electronic mandate” in a presentation. The bank
                     stated that it had no capacity concerns and validated capacity levels for 5 million
                     cardholders during the initial bid process. Following the presentation, Fiscal Service
                     concluded that Direct Express should receive financial support, and suggested that
                     Comerica submit a proposal for compensation.
July 9, 2010         Fiscal Service met with Comerica. Comerica submitted to Fiscal Service a report showing
                     the estimated revenues and expense of the program for various enrollment scenarios as a
                     result of the mandate.
July 29, 2010        Fiscal Service visited a Direct Express call center.
October 28, 2010     Comerica proposed a compensation option for Direct Express as a result of the all-electronic
                     mandate. Proposal included a tiered active account maintenance fee ranging from $1.325 to
                     $1.425, an enrollment fee of $3 for each new enrollment, and an extension of the FAA
                     through January 2015.
November 1, 2010     Comerica revised the October 28 proposal to reduce the monthly maintenance fee to $0.92
                     per account; increase the new enrollment fee to $10; add a lump sum investment of
                     $11 million; and to split the 2-year FAA extension into 2 single-year extensions.
November 2, 2010     Comerica revised the November 1 proposal to include a monthly maintenance fee of $0.92
                     per account, $5 for each new enrollment, an additional $5 for enrollments made in late
                     2012 and early 2013 solely to comply with the mandate, a lump sum payment of $20
                     million, and 2 one-year extensions of the FAA to January 2015.
November 2010        Fiscal Service requested that Comerica develop a slide presentation detailing the differences
                     between the program bid and the implemented product.
December 6, 2010     Comerica submitted a slide presentation via email comparing its bid assumptions to the
                     implemented program and the requirements set forth by the all-electronic mandate. The slide
                     presentation included predictions of the program’s expected revenues and expenses through
                     2014, showing expenses exceeding revenues by $124 million.
December 22, 2010    Treasury amended its regulation to require recipients of federal nontax payments to receive
                     payment by EFT, effective May 1, 2011. The effective date was delayed until March 1,
                     2013, for individuals receiving federal payments by check on May 1, 2011; and for
                     individuals who requested check payments when they filed a claim for federal benefits
                     before May 1, 2011. Individuals who did not choose the direct deposit option would be
                     enrolled in the Direct Express program. Treasury waived the EFT requirement for recipients
                     born before May 1, 1921, and those receiving payments by paper check on March 1, 2013;
                     for payments not eligible for deposit to a Direct Express prepaid card account; and for
                     recipients whose Direct Express card had been suspended or cancelled. In addition, the rule
                     established the criteria under which a payment recipient may request a waiver if the EFT
                     requirement creates a hardship due to mental impairment or remote geographic location.
March 8, 2011        Fiscal Service drafted an internal memo describing the rationale for compensating Comerica.
March 31, 2011       Fiscal Service amended the FAA with Comerica to include (1) $5 per new enrollment
                     processed on or after December 1, 2010, regardless of whether the prepaid debit card was
                     activated or received a payment; and (2) up to $20 million for infrastructure development
                     support for expanding the program. Fiscal Service authorized use of permanent and
                     indefinite appropriations to compensate Comerica.
October 2012         The Federal Reserve Bank Dallas Call Center began processing 100 percent of enrollments
                     for Direct Express, using Treasury’s Payments, Claims and Enhanced Reconciliation system
                     to verify enrollment information.
March 1, 2013        Individuals currently receiving benefit checks were required to receive payments
                     electronically.
August 16, 2013      Fiscal Service visited a Direct Express call center.
September 25, 2013   Fiscal Service visited a Direct Express call center.




                      Fiscal Service Needs to Improve Program Management of Direct Express               Page 46
                      (OIG-14-031)
                      Appendix 3
                      Direct Express Enrollments and Fiscal Service’s Payments to Comerica


Table 2: The number of enrollments in the Direct Express Debit MasterCard program by month since
         the third quarter of 2008, and a schedule of payments made by the Bureau of the Fiscal
         Service to Comerica since the March 2011 amendment to the financial agency agreement.

                                                                                             Infrastructure
                                                     Cumulative    Enrollment Fees
Dates                         Enrollmentsa                                                       Payments
                                                     Enrollments

3rd Quarter 2008b                111,128               111,128
October 2008                      60,507               171,635
November 2008                     43,248               214,883
December 2008                     46,177               261,060
January 2009                      47,808               308,868
February 2009                     44,344               353,212
March 2009                        51,297               404,509
April 2009                        42,699               447,208
May 2009                          44,369               491,577
June 2009                         55,557               547,134
July 2009                         54,546               601,680
August 2009                       46,457               648,137
September 2009                    47,075               695,212
October 2009                      58,473               753,685
November 2009                     49,987               803,672
December 2009                     47,819               851,491
January 2010                      44,322               895,813
February 2010                     44,346               940,159
March 2010                        55,217               995,376
April 2010                        53,324             1,048,700
May 2010                          52,715             1,101,415
June 2010                         60,051             1,161,466
July 2010                         60,175             1,221,641
August 2010                       66,499             1,288,140
September 2010                    69,769             1,357,909
October 2010                      56,698             1,414,607
November 2010                     67,710             1,482,317
December 2010                     67,800             1,550,117
January 2011                      87,541             1,637,658
February 2011                     67,019             1,704,677
March 2011                        93,150             1,797,827        $1,588,905
April 2011                        83,640             1,881,467           418,200             $10,000,000c
May 2011                         109,437             1,990,904           547,185
June 2011                        110,257             2,101,161           551,285
July 2011                        109,168             2,210,329           545,840
August 2011                      132,327             2,342,656           661,635
September 2011                   109,071              2,451,727           545,355



                      Fiscal Service Needs to Improve Program Management of Direct Express          Page 47
                      (OIG-14-031)
                        Appendix 3
                        Direct Express Enrollments and Fiscal Service’s Payments to Comerica


                                                                                                 Infrastructure
                                                        Cumulative     Enrollment Fees
Dates                            Enrollmentsa                                                        Payments
                                                        Enrollments

October 2011                        113,530              2,565,257            567,650
November 2011                       131,668              2,696,925            658,340
December 2011                       154,168              2,851,093            770,840
January 2012                        141,616              2,992,709            708,080
February 2012                       126,620              3,119,329            633,100
March 2012                          123,780              3,243,109            618,900
April 2012                          122,759              3,365,868            613,795
May 2012                            141,636              3,507,504            708,180
June 2012                           126,190              3,633,694            630,950
July 2012                           116,869              3,750,563            584,345
August 2012                         128,452              3,879,015            642,260
September 2012                      108,119              3,987,134            540,595
October 2012                        133,643              4,120,777            668,215
November 2012                       127,569              4,248,346            637,845
December 2012                       139,048              4,387,394            695,240               2,686,708
January 2013                        195,646              4,583,040            978,230
February 2013                       268,212              4,851,252          1,341,060
March 2013                          187,326              5,038,578            936,630
April 2013                          156,036              5,194,614            780,180
May 2013                            134,389              5,329,003            671,945
June 2013                           119,433              5,448,436            597,165
Totals                              5,448,436               5,448,436       $19,841,950           $12,686,708
a
  The number of new enrollments for each month may include inactive, pending, returned, and/or closed accounts.
b
  Fiscal Service did not maintain monthly enrollment data prior to October 2008.
c
  The first infrastructure payment was made in April 2011; this payment included compensation for changes
  Comerica made to its infrastructure in November 2010 to accommodate the “all-electronic mandate.”
Source: Enrollment Reports provided to Fiscal Service from Comerica.




                        Fiscal Service Needs to Improve Program Management of Direct Express            Page 48
                        (OIG-14-031)
                         Appendix 4
                         Survey Results for the Debit Card Pilot Program


Table 3: Survey results of the customer satisfaction components for the debit card pilot program.

Customer Satisfaction
Component                                                    Survey Results
Overall Satisfaction            •   85 percent of the customers surveyed were satisfied with the pilot
                                    program debit card and 78 percent would have definitely
                                    recommended it to a family member or friend
                                •   Older customers (60 years +) appeared to be less satisfied with the
                                    card and used it less often on average
Costs to cardholder             •   59 percent of customers said the fees associated with the card were
                                    less than what they were paying before
                                •   25 percent felt the fees were the same, while 11 percent felt the fees
                                    were more than before
Likes/Dislikes of card          •  35 percent of customers signed up for the card so they would not
features                           have to worry about lost or stolen checks
                                • Suggestions for improvement included having less charges/fees,
                                   allowing customers to make deposits, withdrawing any amount of
                                   cash, and having more ATMs/banks in the area
                                • The reasons customers were satisfied with the card were
                                   ease/convenience (42 percent), speed (27 percent), and
                                   safety/security (26 percent)
Ease of use                     • 18 percent of cardholders said having the card was easier than
                                   cashing a check
                                • 64 percent of customers did not have any problems with the debit
                                   card
                                • 35 percent of the customers who had experienced problems using
                                   their card were mainly due to ATM malfunction or the card not being
                                   accepted (37 percent) or insufficient funds (23 percent)
Customer Service                • Although all customer service representative ratings were high,
                                   attributes related to agent knowledge, answering all of the caller’s
                                   questions, and providing accurate information were rated relatively
                                   lower than attributes relating to friendliness and taking time to listen
                                   and help
Accessibility                   • 7 percent of dissatisfied customers suggested more ATMs/banks in
                                   the area
Enrollment                      • 88 percent of customers were satisfied with the service they received
                                   when they called to sign up for the card
Awareness                       • The highest percentage of customers became aware of the card from
                                   an insert with their benefit check (43 percent) or through direct
                                   mail/letter (33 percent)
Knowledge of Benefits           • 41 percent of customers received the most information about the card
                                   from a customer service representative. Nearly all customers who
                                   received most information through a representative “Agreed
                                   Completely” that they were given the information needed regarding
                                   the card’s convenience, value, security, and fees in a clear and
                                   understandable way
Source: Fiscal Service, Pilot Program Evaluation Report (Sep. 6, 2007)




                         Fiscal Service Needs to Improve Program Management of Direct Express      Page 49
                         (OIG-14-031)
                        Appendix 5
                        Analysis of the Financial Agent Selection Process’ Six Finalists


Table 4: Analysis of the six finalists’ submissions for the Direct Express FAA.

                                                                                                     Palm
                       Comerica        Bank A           Bank B          Bank C        Bank D        Desert
                                                                                                   National
                                                                                                    Banka
                                                                                               e
Cost to Fiscal     Free             Free            Free            Free          Free
Service
Estimated          $62,421          $63,901         $71,164         $78,532       $83,553      $74,517
Cardholder Feesb
Cardholder Fees
Monthly Account    Free             Free            Free            Free          Free         Free
Maintenance
                                                                    d
Card Issuance      Free             Free            Free                          $2.00        $2.39
Fee
Point of Sale      Free             Free            Free            Free          Free         Free
Purchase (With
Signature)
Point of Sale      Free             Free            Free            Free          Free         Free
Purchase (PIN-
based)
Number of Free     1 per            1 per benefit   Unlimited in    1 per         Unlimited    2
Domestic ATM       deposit, with    deposit per     network & 1     benefit       in network
Cash               carryover to     month           free per        deposit per
Withdrawalc        the following                    month           month
                   month                            anywhere
                                                    else
Additional          $0.90            $1.00           $1.50           $1.50         $2.00           $1.50
Domestic ATM
Cash Withdrawal
Bank Teller        Free             Free            Free             $5.00        Free             $4.95
Withdrawal
International       $3.00            $3.00          Not              $3.00         $2.50           $3.00
ATM Withdrawal                                      Applicable
                                                    d               d             d            d
Internet and       Free             Free
Telephone
Purchase
                                                    d               d             d
Paying Bills       Free             Free                                                           $0.35
                                                                                  d
ATM Balance        Free              Free           Free             $1.00                         $0.25
Inquiry
                                                                                  d
ATM Decline        Free              Free           Free             $1.00                         $1.00
                                                                                  d
POS Decline        Free              Free           Free             $1.00                         $1.00
                   d                                d
Convenience                          $10.00                          $12.00       Free             $9.50
Check




                        Fiscal Service Needs to Improve Program Management of Direct Express         Page 50
                        (OIG-14-031)
                       Appendix 5
                       Analysis of the Financial Agent Selection Process’ Six Finalists


                                                                                                  Palm
                      Comerica         Bank A          Bank B           Bank C       Bank D      Desert
                                                                                                National
                                                                                                 Banka
                                                                                 d
Account           Free             $1.50 /         $1.50 /         $1.50 /                    $0.95 /
Inactivity Fee                     month after     month after     month                      month
                                   12 months       12 months       after 6                    after 90
                                   of inactivity   of inactivity   months of                  straight
                                                                   inactivity                 days of
                                                                                              inactivity
                                                   d               d             d
International      3.00%           1.50%                                                      4.00%
Currency
Conversion
                                                                                 d
Overdraft Fee      Free             $10.00          $9.00          Free                       $8.95
                                                   d               d             d            d
IVR Fund           $1.50            $0.50
Transfer
Balance Transfer d                 d               d               d             d
                                                                                              $0.95
                   d               d               d               d                          d
ACH Transfers                                                                     $1.50
                   d               d               d               d                          d
Money Transfer                                                                    $8.95
(Western Union)
via IVR
                                   d               d               d             d
On-Line Bill Pay    $0.50                                                                     $0.35
(per item)
Bill Pay via paper d               d               d               d             d
                                                                                              $0.95
check
Customer Service
Web Balance         Free           Free             Free            Free         Free         Free
                   d               d                               d                          d
Balance Inquiry                                    Free                          Free
via IVR
                                                   d                d                         d
Text                Free           Free                                          Free
Notifications to
Cell Phone
                                                   d                                          d
Email Customer      Free           Free                            d             d

Service
                   d               d               d               d                          d
Money Network                                                                    Free
Checks
IVR Customer        Free           Free             Free            Free         Free         Free
Service call
Live Operator       Free           Free            2 Free per       Free          $1.00       $3.00
Customer                                           month then
Service                                            $3.00/per
                                                   call
                  d                d               d               d             d
Live Operator                                                                                 $3.00 for
Charge to                                                                                     card
Treasury                                                                                      transaction
                                                                                              /$5.00 for
                                                                                              all other
                                                                                              calls



                       Fiscal Service Needs to Improve Program Management of Direct Express       Page 51
                       (OIG-14-031)
                        Appendix 5
                        Analysis of the Financial Agent Selection Process’ Six Finalists


                                                                                                     Palm
                       Comerica          Bank A         Bank B          Bank C        Bank D        Desert
                                                                                                   National
                                                                                                    Banka
                                    d               d                             d            d
No of Free         1                                                1
Replacement
Cards per year
Replacement         $4.00            $5.00           Free            $5.00         $6.00       $4.95
Card
Replacement         $13.50           $12.95          $15.00          $12.50        $6.00       $34.95
Card Expedited
Delivery (over
cost of card)
                                                    d               d             d            d
PIN Change         Free             Free
                                                    d               d             d            d
Account Closure    Free             Free
                                    d               d               d             d
Paper Statement    Free                                                                        $1.95 / per
upon cardholder                                                                                request
request
Optional Paper     $0.75 /          $0.95 /         $2.00/          $0.95 /       Free         $1.95 / per
Statement          month            month           month           month         internet     request
                                                                                  Paper-
                                                                                  $1.95
Capacity          20 million or     None            None            None          None         None
Restraints        more
                  cardholders
Marketing and Contribution
                                                                    d             d            d
Financial         $2.4 million      Unlimited       Unspecified
Institution
Marketing and
Contribution
                                                                                  d            d
Visa / Master     $1.5 million      $1.5 million    $1.5 million    $1.5
Card Marketing                                                      million
                                                    d                             d
Use of Marketing No                 No                              Yes                        No
for Cardholder                                                      w/FMS
Purposes                                                            approval
Number of         53,160            51,000            (1) 5,000     40,000        32,000      90,000
ATMS              Surcharge         Surcharge-        Surcharge-    Surcharge-    Surcharge- Surcharge-
                  Free ATMs.        Free ATMs.        Free ATMs     Free          Free        Free
                                                      or (2)        ATMs.         ATMs.       ATMs.
                                                      32,000 with
                                                      All point.
a
  The Office of the Comptroller of the Currency closed Palm Desert National Bank on April 27, 2012.
b
  We interviewed Bureau of the Fiscal Service personnel to determine how the cardholder fees were
  calculated during the financial agent selection process; however, Fiscal Service was not able to
  provide us with information to support the figures provided.
c
  Domestic ATM Cash Withdrawal means a cash withdrawal made at an ATM located in the 50 United
  States, the District of Columbia, Puerto Rico, Guam, or the U.S. Virgin Islands.
d
  Information was not listed in documentation provided by Fiscal Service.
e
  $2.39/per card; Fiscal Service provides toll free line; and $5.00 non-card calls.
Source: The Financial Agent Selection Process participants’ bid applications.

                        Fiscal Service Needs to Improve Program Management of Direct Express         Page 52
                        (OIG-14-031)
                       Appendix 6
                       Direct Express Program Revenues and Expenses


Table 5: Comerica’s Direct Express Debit MasterCard program revenues, compensation paid by the
         Bureau of the Fiscal Service (Fiscal Service), and expenses since the program’s inception in
         2008.

                                                                                                Net Income
                                 Compensation                                                 (Loss) without
                                                                           Net Income
    Year         Revenues*       Paid by Fiscal        Expenses                               Fiscal Service
                                                                             (Loss)
                                    Service                                                   Compensation

2008              $2,435,504                   0        $5,470,766         ($3,035,262)       ($3,035,262)
2009              19,081,061                0        22,033,988       (2,952,927)       (2,952,927)
2010              40,706,147                0        43,418,741       (2,712,594)       (2,712,594)
2011              83,882,654     $16,855,235         70,269,954       13,612,700        (3,242,535)
2012            117,987,911       10,368,213        115,285,103         2,702,808       (7,665,405)
As of March
                  34,301,361       5,305,210         33,502,699           798,662       (4,506,548)
2013
Total          $298,394,638      $32,528,658       $289,981,251       $8,413,387 ($24,115,271)
* Includes Fiscal Service’s compensation payments.
Source: The revenues and expenses for the program were provided by Comerica upon Fiscal Service’s
        request. The data on compensation paid to Comerica was provided by Fiscal Service.

.




                       Fiscal Service Needs to Improve Program Management of Direct Express          Page 53
                       (OIG-14-031)
                         Appendix 7
                         Service Level Requirement (Customer Service Response Time)


Table 6: Comerica’s performance against the customer service response time requirement for the
         months of May since 2009. Red type indicates failure to meet benchmark. We reviewed
         similar data for the intervening months and did not find significant differences. The financial
         agency agreement (FAA) requires Comerica to answer 80 percent of all calls within 30
         seconds of a call transfer, 92 percent of calls within 90 seconds of a call transfer, and 95
         percent within 180 seconds. Also, the FAA requires that no more than 5 percent of calls
         should be abandoned.


     Benchmark         May 2009           May 2010                May 2011                  May 2012

80% of calls within
                        78.2%             61.95%                   77.4%                        72.0%
30 seconds
92% of calls within
                        90.9%             72.31%                   86.1%                        81%
90 seconds
95% of calls within
                        95.3%             81.39%                   89.9%                        86%
180 seconds
No more than 5%
                        3.08%             11.94%                     5%                         5.86%
of calls abandoned
Source: Comerica’s Activity Reports.




                         Fiscal Service Needs to Improve Program Management of Direct Express           Page 54
                         (OIG-14-031)
                     Appendix 8
                     Direct Express Monthly Call Volume


Table 7: Comerica’s Direct Express Debit MasterCard program monthly call volume from May 2009 to
         May 2013, separated by the total call volume and those handled by a customer service
         representative.

                                            Customer Service
      Dates           IVR Call Total       Representative Calls

May 2009                       No Data                    142,048
June 2009                   2,841,023                     129,062
July 2009                   3,353,041                     145,344
August 2009                 2,972,311                     120,999
September 2009              3,218,904                     133,056
October 2009                3,903,606                     202,452
November 2009               3,166,683                     203,903
December 2009               4,334,638                     228,591
January 2010                3,646,402                     177,022
February 2010               4,044,408                     190,264
March 2010                  4,384,946                     226,596
April 2010                  4,973,734                     236,847
May 2010                    4,610,506                     216,993
June 2010                   5,178,100                     240,190
July 2010                   6,246,441                     276,970
August 2010                 4,847,009                     264,515
September 2010              5,873,294                     133,056
October 2010                6,437,441                     270,485
November 2010               5,892,312                     276,755
December 2010               7,274,986                     315,998
January 2011                5,774,380                     279,260
February 2011               6,303,180                     273,752
March 2011                  6,929,771                     325,871
April 2011                  7,756,740                     346,142
May 2011                    6,686,748                     335,447
June 2011                   7,858,529                     374,541
July 2011                   8,426,231                     396,644
August 2011                 9,048,609                     415,503
September 2011              9,598,796                     392,420
October 2011                8,247,579                     365,363
November 2011               8,879,652                     406,888
December 2011             12,041,367                      467,502
January 2012                9,092,564                     415,709
February 2012               9,816,487                     365,355
March 2012                12,095,453                      440,617
April 2012                  9,153,957                     352,540
May 2012                  11,354,951                      419,418


                     Fiscal Service Needs to Improve Program Management of Direct Express   Page 55
                     (OIG-14-031)
                       Appendix 8
                       Direct Express Monthly Call Volume


                                              Customer Service
      Dates            IVR Call Total        Representative Calls

June 2012                  13,255,549                       423,543
July 2012                  10,497,427                       391,837
August 2012                14,968,058                       516,983
September 2012             10,302,432                       423,417
October 2012               12,602,382                       506,683
November 2012              14,759,493                       512,102
December 2012              15,826,460                       517,263
January 2013               13,381,673                       530,979
February 2013              13,444,671                       510,004
March 2013                 14,810,125                       519,472
April 2013                 14,975,220                       553,371
May 2013                     17,374,139                     589,210
Source: Comerica Activity Reports.




                       Fiscal Service Needs to Improve Program Management of Direct Express   Page 56
                       (OIG-14-031)
Appendix 9
Management Response




Fiscal Service Needs to Improve Program Management of Direct Express   Page 57
(OIG-14-031)
Appendix 9
Management Response




Fiscal Service Needs to Improve Program Management of Direct Express   Page 58
(OIG-14-031)
Appendix 9
Management Response




Fiscal Service Needs to Improve Program Management of Direct Express   Page 59
(OIG-14-031)
Appendix 9
Management Response




Fiscal Service Needs to Improve Program Management of Direct Express   Page 60
(OIG-14-031)
Appendix 9
Management Response




Fiscal Service Needs to Improve Program Management of Direct Express   Page 61
(OIG-14-031)
Appendix 9
Management Response




Fiscal Service Needs to Improve Program Management of Direct Express   Page 62
(OIG-14-031)
Appendix 10
Major Contributors to This Report




Christen J. Stevenson, Audit Manager
Andrea D. Smith, Auditor-in-Charge
Jennifer R. Adamson, Auditor
David W. Younes, Program Analyst
Alexander A. Granado, Referencer




Fiscal Service Needs to Improve Program Management of Direct Express   Page 63
(OIG-14-031)
Appendix 11
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Bureau of the Fiscal Service

    Commissioner
    Assistant Commissioner, Payment Management
    Director, Finance and Internal Control Division
    OIG Liaison

Office of Management and Budget

    OIG Budget Examiner




Fiscal Service Needs to Improve Program Management of Direct Express   Page 64
(OIG-14-031)
